<html>
<title> - S. 2411, THE ASSISTANCE TO FIREFIGHTERS ACT OF 2004</title>
<body><pre>[Senate Hearing 108-941]
[From the U.S. Government Printing Office]







                                                        S. Hrg. 108-941

                      S. 2411, THE ASSISTANCE TO 
                        FIREFIGHTERS ACT OF 2004

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

76-390 PDF                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 8, 2004.....................................     1
Statement of Senator McCain......................................     1

                               Witnesses

DeWine, Hon. Mike, U.S. Senator from Ohio........................    24
    Prepared statement...........................................
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........    20
    Prepared statement...........................................    20
Mencer, C. Suzanne, Executive Director, Office for State and 
  Local Government Coordination and Preparedness, U.S. Department 
  of Homeland Security...........................................     2
    Prepared statement...........................................     4
Mitchell, Ernest, Chief (Ret.), Pasadena, California Fire 
  Department and President, International Association of Fire 
  Chiefs (IAFC)..................................................    13
    Prepared statement...........................................    15
Monihan, E. James, Past Chairman and Delaware State Director, 
  National Volunteer Fire Council................................    26
    Prepared statement...........................................    29
Paulison, R. David, Director, Preparedness Division and United 
  States Fire Administrator, Federal Emergency Management Agency, 
  Department of Homeland Security................................     7
    Prepared statement...........................................     9
Shannon, James M., President and CEO, National Fire Protection 
  Association (NFPA).............................................    33
    Prepared statement...........................................    36
Shields, Billy, President, United Phoenix Fire Fighters and Vice 
  President, Professional Fire Fighters of Arizona...............    38
    Prepared statement...........................................    43

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    53

 
                      S. 2411, THE ASSISTANCE TO 
                        FIREFIGHTERS ACT OF 2004

                              ----------                              


                         THURSDAY, JULY 8, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The Committee meets today to 
examine S. 2411, the Assistance to Firefighters Act of 2004. 
This legislation was introduced by Senators Dodd and DeWine, 
along with myself and 37 cosponsors, to reauthorize the 
Assistance to Firefighters Grant Program. Over the years, the 
Assistance to Firefighters Grant Program has gained a 
reputation for being an effective way to help local fire 
departments meet their basic needs for responding to all 
hazards. These grants, known as Firefighter Investment and 
Response Enhancement Grants, FIRE, are made directly to local 
jurisdictions. Applications undergo a competitive, merit-based 
process, which helps to ensure that the funding is spent 
responsibly and productively.
    The grant program includes a matching requirement to ensure 
that the local community is committed to using the grant to 
fulfill a specific purpose. These grants are used for a variety 
of purposes, including personal protection and firefighting 
equipment, training, firefighting vehicles, fire-prevention 
campaigns, fire-code enforcement, and arson prevention and 
detection.
    I'd like to emphasize that these grants are dedicated to 
improving the local response to, quote, ``all hazards,'' 
including natural disasters, structural fires, and acts of 
terrorism.
    For Fiscal Year 2004, the program received over 20,000 
applications from local fire departments around the country. 
These requests totaled approximately $2.3 billion in Federal 
spending. The program received a similar number of applications 
in each of Fiscal Years 2001, 2002, and 2003, which clearly 
demonstrates the continued need and importance of this program 
to the firefighting community.
    Last year, the Office for Domestic Preparedness replaced 
the U.S. Fire Administration as the agency tasked with 
administering the FIRE Grant Program. This has raised some 
concerns in the fire service community that the focus of the 
program would be changed from responding to all hazards to only 
anti-terrorism preparedness.
    In addition, concerns have been raised that the peer-review 
process would eventually be dropped, and that the FIRE Grant 
Programs would be combined with existing state block grant 
programs. I look forward to hearing how the Department of 
Homeland Security is addressing these concerns. In addition, I 
look forward to hearing any recommendations that the witnesses 
may have regarding this legislation. S. 2411 would make a 
number of reforms to the existing program in addition to 
reauthorizing the program through Fiscal Year 2010. It will be 
helpful to know how these reforms will affect the 
administration of the program and the local fire departments 
that benefit from it.
    It's my intention to mark up this legislation, in the hope 
that it can be included as part of the National Defense 
Authorization Act for Fiscal Year 2005. I believe we should 
work to pass this legislation this year in order to ensure that 
our Nation's firefighters continue to have access to this 
critical grant program.
    As is demonstrated by their ongoing efforts to control the 
wildfires around Mount Graham, in Southern Arizona, our 
Nation's firefighters face a myriad of threats. We should 
ensure that they are adequately equipped and trained to meet 
them.
    And I welcome all of our witnesses today. And since Senator 
DeWine and Senator Dodd are fashionably late, we will ask the 
first panel, Ms. Suzanne Mencer, the Director of Office of 
State and Local Government Coordination and Preparedness; and 
the Honorable David Paulison, Director of Preparedness Division 
and U.S. Fire Administrator, Emergency Preparedness and 
Response Directorate of the U.S. Department of Homeland 
Security--would you please come forward, and we'll begin with 
you, Ms. Mencer. Welcome to both of you.

      STATEMENT OF C. SUZANNE MENCER, EXECUTIVE DIRECTOR,

             OFFICE FOR STATE AND LOCAL GOVERNMENT

                 COORDINATION AND PREPAREDNESS,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Mencer. Thank you very much, Mr. Chairman.
    The Chairman. Your complete statements will be made part of 
the record.
    Ms. Mencer. Chairman McCain and Ranking Member Hollings, in 
absentia, and members of the Committee, I am pleased to have 
this opportunity to discuss the current status of the 
Assistance to Firefighters Grant Program and legislation before 
this Committee to reauthorize the program.
    I first want to assure you, Mr. Chairman, that the 
Department supports the FIRE Act Grant Program and is committed 
to continuing the critical support it provides to our Nation's 
firefighters. We look forward to working with the Committee on 
the reauthorization of this important program.
    Over the past Fiscal Year, we have been working closely 
with the United States Fire Administration to ensure a smooth 
transition of this program and to award FIRE Act grants quickly 
and efficiently. At the same time, we have been working to 
improve overall Federal preparedness assistance to the public-
safety community.
    As you know, Secretary Ridge recently directed the 
consolidation of the Office for Domestic Preparedness with the 
Office of State and Local Government Coordination to create a 
one-stop-shop of Federal assistance for America's first 
responders. The Secretary's consolidation decision places 
administration of the FIRE Act program within the new Office of 
State and Local Government Coordination and Preparedness, or 
SLGCP.
    While we may be a new consolidated entity within the 
Department of Homeland Security, as you know, Mr. Chairman, 
SLGCP's predecessor offices have a long and successful history 
of working closely with the fire service community to ensure 
that its members are fully prepared to prevent and respond to 
terrorism and other emergency incidents. For example, several 
years ago we provided funding to the United States Fire 
Administration to develop terrorism emergency response training 
for firefighters. More recently, we worked with the USFA 
administrator, David Paulison, to develop courses for delivery 
with our State Homeland Security and Urban Areas Security 
Initiative program funds. And we continue to work with Chief 
Paulison to coordinate the review of course materials developed 
by USFA's Emergency Management Institute and National Fire 
Academy.
    To ensure the seamless delivery of the almost $746 million 
in Fiscal Year 2004 funding appropriated for the FIRE Act 
Grants Program, we have maintained our close coordination with 
USFA and the Department's Emergency Preparedness and Response 
Directorate. For example, to better serve the fire-service 
community, FIRE Act Grant application materials, as well as 
additional information and resource materials, were posted on 
both the DHS and USFA Websites. We have continued the use of 
peer-review panels for FIRE Act grant applications. As in past 
years, peer reviews were conducted at the National Fire 
Academy, in Emmitsburg, Maryland, in coordination with the USFA 
and members of the fire service. We also developed a CD-ROM 
that contains all pertinent 2004 program information, including 
a self-study tutorial on the grant application process. And, 
together with EP&R and USFA, we continued the successful 
practice of holding local workshops for fire departments across 
the country in order to provide valuable information and 
guidance on the application process. During the FY-2004 
application period, working with USFA and FEMA regional 
offices, we conducted nearly 400 workshops that were attended 
by almost 10,000 fire department officials throughout the 
country.
    We also worked with the fire-service representatives to 
select the three areas for which the 2004 FIRE Act grants may 
be used. On their recommendation, the Emergency Medical 
Services Program area was consolidated under the Fire 
Operations and Safety, in an effort to increase the number of 
requests for EMS equipment and training. As a result, we have 
seen a twelvefold increase in EMS-related applications this 
year, from 216 in FY-2003 to over 2,500 in the current 
application cycle. We've also increased our efforts to make 
local fire departments aware that they may use FIRE Act grant 
funds to purchase equipment related to WMD response, and to 
coordinate those funding requests with the state's homeland-
security strategy.
    As a result of these and other efforts, the transfer of the 
FIRE Act Grant Program has been highly successful. This year, 
we received 20,348 applications, slightly more than the number 
received last year. Sixty-six percent of these applications 
requested funds for the Fire Operations and Fire Safety 
Program-Firefighter Safety Program, 33 percent were for 
firefighting vehicles, and 1 percent were for fire prevention.
    I would like to clarify, for the Committee, this last 
figure. As you know, the authorizing statute allows the 
Department to make grants for fire prevention to organizations 
that are not fire departments, provided that these 
organizations are recognized for their work in fire prevention. 
This fall, we will open an additional application period for 
both fire department and nonfire department organizations that 
wish to pursue fire-prevention activities.
    Let me assure you, Mr. Chairman, that we, at SLGCP, 
recognize the importance of continued support for the fire 
service through the Assistance to Firefighters Grant Program. 
We know that the funds provided through this program are 
critical to the operations of many fire departments, 
particularly in rural and volunteer departments, but also in 
urban and suburban departments, as well.
    The Department of Homeland Security supports your effort, 
Mr. Chairman, to reauthorize this important program. And we 
especially appreciate the legislation before this Committee, 
the Assistance to Firefighter Act of 2004. It will allow 
Secretary Ridge the discretion he will need to ensure a 
streamlined and well-administered Assistance to Firefighter 
Grant Program throughout the years to come.
    Detailed Department comments on this bill will be provided 
to the Committee in the near future. We at SLGCP look forward 
to continuing to providing the fire service with the valuable 
resources available through this grant program.
    The President's FY05 budget request is $500 million. This 
is the first time funds for this program have been requested as 
a separate request from other first responder programs.
    On behalf of all of us at the Department of Homeland 
Security, I want to thank this Committee and the other Members 
of Congress for your ongoing support for the Department, for 
SLGCP, and for the Assistance to Firefighter Grant Program. We 
recognize that you have entrusted us with a great deal of 
responsibility, and I want to assure you that we will continue 
to meet that responsibility with the utmost diligence. Working 
with you and your colleagues in the Fire service, we will make 
this an even more successful program in the future.
    And this concludes my statement, Mr. Chairman, and I would 
be happy to answer any questions that you may have.
    [The prepared statement of Ms. Mencer follows:]

Prepared Statement of C. Suzanne Mencer, Executive Director, Office for 
    State and Local Government Coordination and Preparedness, U.S. 
                    Department of Homeland Security
    Chairman McCain, Ranking Member Hollings and members of the 
Committee, my name is Sue Mencer. I serve as the Executive Director of 
the Department of Homeland Security's (DHS) Office for State and Local 
Government Coordination and Preparedness (OSLGCP). On behalf of 
Secretary Ridge, it is my pleasure to appear before you today to 
discuss the current status of the Assistance to Firefighters Grant 
Program and the legislation before the Committee to reauthorize the 
program.
    Mr. Chairman, the Department supports the Committee's effort with 
respect to the Assistance to Firefighters Grant Program and we look 
forward to working with you to provide critical support to the Nation's 
fire service. As you know, the State and local first responder 
community has for some time been calling for consolidation of, and 
better accountability for, Federal preparedness assistance to the 
public safety community. Secretary Ridge's recent consolidation of the 
Office for Domestic Preparedness (ODP) with the Office of State and 
Local Government Coordination is an important step and demonstrates the 
Secretary's commitment toward creation of a ``one-stop-shop'' for 
America's first responders.
    As the Committee is aware, the Secretary's consolidation decision 
places administration of the Assistance to Firefighters Grant Program 
within OSLGCP. OSLGCP administers this program in full coordination 
with the United States Fire Administration (USFA). As the Committee is 
also aware, the Secretary's assignment of the Assistance to 
Firefighters Grant Program to OSLGCP follows action taken by the 
Congress with the passage of the Department's Fiscal Year 2004 
Appropriations Act, which provided for OSLGCP administration of the 
program beginning in the current Fiscal Year. I am happy to report that 
the administration of this critical program under OSLGCP is moving 
forward with great success.
    On behalf of all of us at DHS, I want to thank this Committee, and 
the Congress, for your ongoing support for the Department, OSLGCP and 
the Assistance to Firefighters Grant Program. The Congress has 
entrusted us with a great responsibility, and we are meeting that 
responsibility with the utmost diligence.
    OSLGCP is responsible for preparing our Nation against terrorism by 
assisting States, local jurisdictions, regional authorities, and tribal 
governments with building their capacity to prepare for, prevent, and 
respond to acts of terrorism. Through its programs and activities, ODP 
equips, trains, exercises, and supports State and local homeland 
security personnel--our nation's first responders--who may be called 
upon to prevent and respond to terrorist attacks.
    OSLGCP has established an outstanding track record of capacity 
building at the State, local, territorial, and tribal levels, by 
combining subject matter expertise, grant-making know-how, and 
establishing strong and long-standing ties to the Nation's public 
safety community. Since its creation in 1998, as the Office for State 
and Local Domestic Preparedness Support, this office has established 
strong ties to the emergency response community, including the fire 
service community. And since its inception, the importance of the fire 
service to our Nation's preparedness has been recognized by this 
office. One of the first training initiatives undertaken by what is now 
OSLGCP was the provision of direct funding to the United States Fire 
Administration for the development of a train-the-trainer course 
entitled Emergency Response to Terrorism: Basic Concepts, a course 
specifically developed to support the fire service. Additional funding 
was provided by this office to expand this first-of-its-kind, train-
the-trainer awareness course to the more advanced operations level.
    More recently, we have worked closely with U.S. Fire Administrator 
David Paulison to review USFA-developed courses for delivery with our 
State Homeland Security and Urban Areas Security Initiative program 
funds. Through this effort, several USFA courses are eligible for 
delivery with these OSLGCP program funds, including attendant support 
costs that include overtime and backfill costs for trainees. We 
continue to work with Chief Paulison to review additional course 
materials developed by USFA's Emergency Management Institute and 
National Fire Academy.
    OSLGCP has provided assistance to all 50 States, the District of 
Columbia, the Commonwealth of Puerto Rico, and the U.S. territories. 
Through its programs and initiatives ODP has trained nearly 550,000 
emergency responders from more than 5,000 jurisdictions and conducted 
more than 380 exercises. And, by the end of Fiscal Year 2004, we will 
have provided States and localities with more than $8.1 billion in 
assistance and direct support.
    OSLGCP's support to State and local public safety comes through a 
number of different programs, including the Assistance to Firefighters 
Grant Program, commonly known as the Fire Act program. Fiscal Year 2004 
funding available for the program is $745,575,000. The President's FY 
2005 budget request for the Assistance to Firefighters Grant Program 
will focus on those authorized program categories that support the 
homeland security role of America's fire service. The administration 
will continue to prioritize this mission in the future.
    As part of the transfer of the Fire Act grants to OSLGCP, and to 
ensure a smooth and seamless transition, we have worked very closely 
with DHS' Emergency Preparedness and Response Directorate (EP&R) and 
the United States Fire Administration. We have conducted regular 
meetings and had continuous contact with EP&R and the United States 
Fire Administration's financial, information technology, regional, 
program, and legislative affairs staffs.
    This year, the Application Kit and Guidance for the Fiscal Year 
2004 grant funds opened on March 1, and closed on April 2. To better 
serve the fire service community, application materials, as well as 
additional information and resource materials, were posted on the 
Department and USFA Websites.
    The FY 2004 Fire Act Grants will provide funding in three program 
areas, which were selected based on discussions with the fire services 
community. These areas are: Firefighting Operations and Safety (which 
includes Training, Equipment, Personal Protective Equipment, Wellness 
and Fitness Programs, and Modification of Facilities); Fire Prevention; 
and Firefighting Vehicles.
    In administering the FY 2004 Assistance to Firefighters Grant 
Program, OSLGCP, in consultation with fire service organizations, 
consolidated the Emergency Medical Services (EMS) program area into the 
Fire Operations and Safety program category. This change was made 
because, in most fire departments, firefighters have multiple roles, 
including suppressing fires, performing rescues, and providing EMS 
services. The Department anticipated that this change would increase 
the number of requests for EMS equipment and training, since it permits 
departments to request EMS funding without excluding funding from other 
support areas. We believe this change has been successful. We have seen 
a twelve-fold increase in EMS-related applications--from 216 in FY 2003 
to over 2,500 in the current Fiscal Year 2004 application cycle. 
Funding requests for EMS-related purposes increased from $14 million in 
FY 2003 to over $66 million in the current application cycle.
    Additionally, in FY 04, in an effort to provide local fire 
departments with greater flexibility and discretion to meet their 
equipment needs, they may also use Fire Act Grant funds to purchase 
additional equipment related to WMD response similar to what may be 
purchased under OSLGCP's State Homeland Security and Urban Area 
Security Initiative grant programs. This type of equipment has always 
been eligible for funding under the Fire Act Grants, but, given the 
dual-use nature equipment, the Department believes it important to 
highlight the acquisition of this type of equipment. In instances where 
a fire department is requesting equipment or training that is related 
to chemical, biological, radiological, nuclear, and explosives, 
(CBRNE), the Department asked the state's homeland security office to 
review the application to ensure that it is consistent with the state's 
homeland security strategy. Each State was asked to provide the Fire 
Act program office with a representative to carry out a technical 
review of applications from the State that include CBRNE-related 
requests and that had been rated as fundable by OSLGCP's peer review 
panelists. During this technical review, the State homeland security 
representative attested to, and certified that, any CBRNE-related 
requests were consistent with the State's homeland security plan, and 
that the requests did not duplicate Department assistance already 
provided or about to be provided.
    The transfer of the Fire Act Grant Program has been highly 
successful. This year, OSLGCP received 20,348 applications, which is 
slightly more than the number received last year.

  <bullet> 66 percent of these applications requested funds for the 
        ``Fire Operations and Firefighter Safety program;''

  <bullet> 33 percent were for Firefighting Vehicles; and

  <bullet> 1 percent were for Fire Prevention.

    I would like to clarify for the Committee this last figure. The 
authorizing statute allows the Department to make grants for fire 
prevention to organizations that are not fire departments, provided, 
that these organizations are recognized for their work in fire 
prevention. The Department will open an additional application period 
this fall for both fire department and non-fire department 
organizations that may wish to pursue fire prevention activities. This 
second application period will surely bolster fire prevention 
activities under the Fire Act Grant program.
    During the current year's application cycle, the Department 
received applications from different types of fire departments, 
including:

  <bullet> 67 percent from ``volunteer'' fire departments;

  <bullet> 19 percent from ``combination'' departments; that is, 
        departments whose members are comprised of both volunteer and 
        career firefighters;

  <bullet> 9 percent from ``career'' departments; and

  <bullet> 5 percent from ``paid on call'' departments, whose members 
        are available in an emergency but are paid only when called 
        upon to respond.

    Through these applications, fire departments across the country 
requested more than $2.3 billion in Federal support. The average 
request for funds varied according to the type of department. For 
instance, the average request for funds from urban fire departments was 
$180,991. Suburban fire departments requested on average $155,439, 
while rural fire departments requested on average $107,445.
    The Department fully supports the use of peer-review panels for 
reviewing Fire Act Grant applications. This year's panels were convened 
on April 13 and finished their reviews on May 7. As in past years, the 
panel sessions were conducted at the National Fire Academy in 
Emmitsburg, Maryland, in coordination with USFA and members of the fire 
service. Based on the work of the panelists, and the number of 
applications that we received, the Department anticipates that the 
awards, begun in early June, will continue through the calendar year.
    Throughout the FY 2004 application period, the Department was 
committed to a successful program. In an effort to better prepare the 
fire service, we provided new resources that were not available in the 
past. We developed a CD-ROM that contains all pertinent FY `04 program 
information, including a self-study tutorial on the grant application 
process. The on-line tutorial received over 80,000 unique visits.
    OSLGCP, along with EP&R and USFA, continued the successful practice 
of holding local workshops for fire departments across the country in 
order to provide valuable information and guidance on the application 
process. These workshops provide invaluable assistance to fire 
departments as they complete and submit their funding applications. 
During the FY 2004 application period, OSLGCP, in coordination with 
USFA and the FEMA Regional Field Offices, conducted nearly 400 
workshops, which were attended by almost 10,000 fire department 
officials.
    Let me assure you that we at OSLGCP recognize the importance that 
continued support for the fire service through the Assistance to 
Firefighters Grant Program represents, particularly to rural and 
volunteer fire departments, as well as to urban and suburban 
departments. Funds provided through this program are critical to the 
operations of many fire departments.
    The Department of Homeland Security supports your effort, Mr. 
Chairman, to reauthorize this important program. And we especially 
appreciate that the legislation before this Committee, the Assistance 
to Firefighters Act of 2004, will allow Secretary Ridge the discretion 
he will need to ensure a streamlined and well-administered Assistance 
to Firefighters Grant Program over the years to come. Detailed 
Department comments on S. 2411 will be provided to the Committee in the 
near future.
    We at OSLGCP look forward to continuing to provide the fire service 
with the valuable resources available through the Assistance to 
Firefighters Grant Program. The President's FY 2005 budget request 
includes $500 million specifically for the Assistance to Firefighters 
program for the first time as a request separate from other ``first 
responder'' programs. The President's budget request for FY 2005 
focuses Assistance to Firefighters grant funds on those categories of 
equipment and training meant to better assist fire departments respond 
to terrorist incidents. These categories of equipment and training, 
much of which are dual use in nature, were initially authorized by 
Congress in an amendment to the Assistance Firefighters Grant Program 
passed in late 2001. The administration will continue to emphasize the 
provision of homeland security-related assistance to our Nation's 
``first responders'' as we move forward.
    I am confident that by working with you and with our colleagues in 
the fire service, we will make this an even more successful program in 
the future. This concludes my statement, Mr. Chairman, and I would be 
happy to answer any questions the Committee may have.

    The Chairman. Thank you very much.
    Welcome back, Chief Paulison.

           STATEMENT OF R. DAVID PAULISON, DIRECTOR,

          PREPAREDNESS DIVISION AND UNITED STATES FIRE

ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT 
                      OF HOMELAND SECURITY

    Chief Paulison. Good to see you again, Mr. Chair. Good 
morning.
    I'm David Paulison, the Director of Preparedness for FEMA, 
and also the United States Fire Administrator, and I do 
appreciate the opportunity to appear before you again on behalf 
of Secretary Ridge.
    As you're aware, each year, fire injures and kills more 
Americans than all other hazards, natural hazards, combined. 
And the death rates in the United States from fire per capita 
are almost the highest in the industrialized world. Our mission 
at the Fire Administration is to reduce loss of life and 
property due to fire, and we work to prevent fire deaths, fire 
injuries, and property loss through leadership advocacy, and 
coordination.
    And we support the fire service in four mission areas. We 
support it in fire service training, public education and 
awareness, technology and research, and data analysis. And to 
accomplish our mission, we have to partner with several groups 
of people in the fire service, other emergency responders, 
state and local governments, other Federal agencies. And, also, 
recently we've been working with private industry to provide 
standardized compatible equipment, and that has been going very 
well. The industry has responded very well to some of our 
needs.
    But today I want to focus my remarks on the Assistance to 
Firefighters Grant Program, known as the FIRE Act, and that the 
USFA has had the privilege of administering from its inception, 
in Fiscal Year 2001, until Fiscal Year 2003, while we also 
continue to partner with Sue Mencer's group in managing this 
program.
    The Firefighter Assistance Grant Program provides 
competitive grants to address training, safety, prevention, 
fire apparatus, personal protective gear, equipment needs, and 
also a health and wellness program. One of the big successes of 
this is our peer-review progress that allows more than 400 fire 
service members to play a significant role in making award 
recommendations. It allows those who know best to have a 
substantive role in the decisionmaking process. The peer-review 
process and the presence of outside groups and firefighter 
involvement enhances this entire program, and we encourage its 
continuation.
    Also, in an effort to offer one-stop shopping, the 
Secretary, with support from Congress, consolidated all first 
responder grant award programs within the Office of State and 
Local Government Coordination and Preparedness. In 2004, the 
Office of State and Local Government Coordination and 
Preparedness, along with the Fire Administration, managed the 
Fire Grant Program together. I would have to make a personal 
comment on the professionalism of this office, working together 
with Sue Mencer and making this program transfer very, very 
successful. I'm very pleased with the outcome and how the grant 
program has been managed so far. We will continue to work 
closely with the Office of State and Local Government 
Coordination and Preparedness to ensure that the program's a 
continued success. And I offer my personal commitment to make 
sure that happens, also.
    One of the examples of this cooperation is the joint 
discussions that we're conducting to study the--to quantify the 
program's impact. At present, there has been no evaluation of 
the program's impact on the local fire departments and fire 
safety. We believe such a study is necessary and will yield 
valuable information as the Department continues its effort to 
support the Nation's fire service. This program has provided a 
tremendous amount of equipment, training, and educational 
programs across this country. But, at present, there has not 
been an evaluation of this grant program's impact because of 
the nature in which these projects were undertaken, completed, 
and the resulting impact on public safety. We are going to 
continue with this process and make sure we put this evaluation 
program in place.
    In conclusion, it has been exciting to have managed this 
program for the last 3 years. I look forward to continue in 
assisting in any way possible, with the Office of State and 
Local Government Coordination and Preparedness, with this grant 
process.
    Mr. Chair, I personally think you for the opportunity to 
appear before you today. Your continued support is greatly 
appreciated. And, believe me, it does not go unnoticed by this 
office or the fire service.
    And I'll be glad to answer any questions at this time.
    [The prepared statement of Chief Paulison follows:]

    Prepared Statement of R. David Paulison, Director, Preparedness 
   Division and United States Fire Administrator, Federal Emergency 
           Management Agency, Department of Homeland Security

    Good Morning, Mr. Chairman and Members of the Committee. My 
name is R. David Paulison. I am the Director of the 
Preparedness Division and the United States Fire Administrator 
in the Federal Emergency Management Agency (FEMA), Department 
of Homeland Security (DHS). I appreciate the opportunity to 
appear before you today on behalf of Secretary Ridge.
    Each year, fire injures and kills more Americans than the 
combined losses of all other natural disasters. Death rates by 
fire in the United States are among the highest in the 
industrialized world. The U.S. Fire Administration's (USFA) 
mission to reduce loss of life and property because of fire and 
related emergencies is a sobering challenge, but also a hopeful 
challenge, since most of these deaths are preventable.
    As a part of DHS, the USFA staff works diligently to 
prevent deaths, injuries, and the damage to property through 
leadership, advocacy, coordination and support in four basic 
mission areas: fire service training, public education and 
awareness, technology and research, and data analysis.
    To accomplish this mission, USFA works with the fire 
service, other emergency responders and State, local, and 
tribal governments to better prepare them to respond to all 
hazards, including acts of terrorism. USFA also listens to 
State, local, and tribal governments and works with private 
industry to provide standardized, practical, and compatible 
emergency response equipment. USFA assists first responders and 
emergency managers at the local, State and Federal level as 
they practice and refine their response plans. USFA continues 
to provide training and education programs to prepare for all 
routine hazards as well as the emergent threats posed by 
weapons of mass destruction and terrorism incidents.
USFA Accomplishments
    USFA is a national leader in fire safety and prevention and 
in preparing communities to deal with fires and other hazards. 
USFA works to support the efforts of local communities to 
reduce the number of fires and fire deaths, champions Federal 
fire protection issues, and coordinates information about fire 
programs.
    In terms of our preparedness programs, USFA recognizes the 
importance of training as a vital step toward establishing a 
first responder community that is prepared to respond to any 
kind of emergency, ranging from a small fire to a terrorist 
attack involving a large number of victims. We continue to 
administer training and education programs for community 
leaders and first responders to help them prepare for and 
respond to emergencies regardless of cause or magnitude. FEMA 
provides training in emergency management to firefighters, law 
enforcement, emergency managers, healthcare workers, public 
works, personnel, and State and local officials at our 
Emergency Management Institute.
    DHS provides equipment, vehicles, and training and wellness 
programs through the Assistance to Firefighter Grant program to 
help first responders perform their duties. For FY 2004, 
Congress appropriated over $745 million for DHS to provide 
grants directly to fire departments to build their basic 
response capabilities for all types of emergencies, including 
suppressing fires. This brings total funding for this grant 
program to over $2 billion since the program began three years 
ago. This program benefits communities as a whole and benefits 
other first responder entities by building the base 
capabilities of local fire departments to respond to all types 
of incidents.
    Today, I will focus my remarks on the Assistance to 
Firefighters Grant Program, known as FIRE Act grants, which 
USFA had the privilege of administering from its inception in 
Fiscal Year (FY) 2001 through FY 2003.
Assistance to Firefighters Grants Program
    The Assistance to Firefighters Grant program provides 
competitive grants to address training, safety, prevention, 
apparatus, personal protective gear and other firefighting 
equipment needs as well as wellness and fitness issues of local 
fire departments. DHS has streamlined the online application 
process for fire grants and sped up the flow of resources to 
first responders, while ensuring that the funds are used 
effectively and appropriately. In 2001, 2002, and 2003, FEMA's 
U.S. Fire Administration received over 20,000 applications each 
year, from fire departments across the country.
    In an effort to offer ``One Stop Shopping'' to the 
applicants for FIRE Act grants--local fire departments--the 
Secretary of Homeland Security, with support from the Congress, 
consolidated all first responder grant award programs within 
the Office for State and Local Government Coordination and 
Preparedness (OSLGCP). This created a single point of entry for 
States and localities into the Federal Government seeking first 
responder assistance. In 2004, OSLGCP, with USFA assistance and 
subject matter expertise, managed the FIRE Act grants program 
within DHS. USFA continues to work closely with OSLGCP to 
ensure the continued success of this vital program. In 
addition, DHS is contributing to government wide efforts to 
facilitate the Federal grants application process by posting 
summaries of grant announcements on the Federal Government's 
Grants.gov website.
    As an example of the cooperation between OSLGCP and USFA, 
for FY 2004 and FY 2005, we have discussed the need to 
undertake a study to attempt to quantify the program's impact 
on local fire departments and fire safety. Both USFA and OSLGCP 
believe such a study is necessary and will yield valuable 
information as the Department continues its efforts to support 
the Nation's fire service.
    Beginning with the 2001 Grant Program, the Emergency 
Education NETwork (EENET), a satellite-based distance learning 
system used by FEMA to bring interactive training programs into 
virtually any community nationwide, broadcast valuable 
information on the grant programs and process. Prior to the 
application period in FY2003, EENET broadcast an actual 
applicant workshop, which was rebroadcast several times during 
the application period. FEMA heard from many organizations that 
this eased the application process. We began announcing the FY 
2003 awards to successful applicants in June 2003 and completed 
them three months ahead of schedule in February of 2004.
    The Assistance to Firefighters Grant program in its short 
three-year existence has provided a tremendous amount of 
equipment, training and educational programs across the Nation. 
At present, there has not been an evaluation of this grant 
program's impact because of the nature in which these projects 
are undertaken, completed, and the resulting impact on public 
safety. In many cases the vehicles purchased are just coming on 
line, the training provided is just now being internalized, and 
the public education campaigns are underway.
    Lauded by many, the peer-review process for the fire grants 
process has been a tremendous success. The process allows a 
diverse sample of the national fire services community to 
review and rank the applications. It allows over 400 fire 
services members, both career and volunteer, from large and 
small communities, from rural, suburban, and urban areas to 
play a significant role in making award recommendations. This 
allows the fire services, who best know the needs of their 
communities, to have a substantive role in the decision making 
process. The present process of outside groups and individual 
firefighter involvement significantly enhances the entire grant 
program.
    Currently, S. 2411, the ``Assistance to Firefighters Act of 
2004,'' has been introduced and would reauthorize the 
Assistance to Firefighters (Fire Act) grant program for the 
Fiscal Years 2005 through 2010. The Department is reviewing 
this proposed legislation and looks forward to providing the 
Committee with comments on the bill in the near future.
Conclusion
    Thank you, Mr. Chairman, for giving me this opportunity to 
appear before you today. Your continued support is greatly 
appreciated. I will be glad to answer any questions you and 
other Members of the Committee may have.

    The Chairman. Thank you very much. And thank you both of 
you for being here.
    For both of you, we continue to see press reports that--
anti-terrorism funds going to buy new equipment, including fire 
equipment in sparsely populated parts of the country, while 
densely populated areas, such as New York City, are not 
receiving adequate funding to prepare for a response. First of 
all, is that--are you bound, by legislation, to a certain 
formula? And if not--if you are, what do you suggest? And if 
not, then what do you think we ought to be doing?
    I'll begin with you, Ms. Mencer.
    Ms. Mencer. Thank you.
    Mr. Chairman, I think we should be mindful that the--
particularly in the urban areas, such as New York City or 
Phoenix or Los Angeles--that they have the opportunity in the 
firefighting community to apply for the FIRE Act grants, and 
they also can receive funding, as well, under the Urban Area 
Security Initiative and the Homeland Security Grant, as well. 
So they have three places to look for funding for equipment and 
other needs they may have.
    I think we also need to remember that this is a dual-use 
kind of issue. When they purchase equipment on behalf of 
terrorism response, it also helps with their everyday 
responses. So I think we need to keep that in mind, as well.
    The Chairman. Chief?
    Chief Paulison. The legislation does dictate to us how we 
distribute the funds across--from rural, suburban, and urban 
departments, and we are--we did that; and, also, the Office of 
State and Local Government is doing the same.
    There is an issue that we do need to deal with. Ms. Mencer 
is correct, there are other funds for them to gather, to apply 
for, for some of these major cities. Having been out of the 
program for a year, as far as officially handling it, and 
stepping back and looking at it, I think that maybe what we 
want to look down the road is maybe increasing the amount of 
funds that some of the bigger cities can gather, because there 
is an issue there where $750,000 max does not have a big impact 
on departments like New York or L.A., or Houston or some of the 
other big cities around the country.
    Obviously, this is a legislative issue, just a 
recommendation that I think that maybe we need to--I would ask 
you all to look at very closely.
    The Chairman. Well, I agree, Chief. And, Ms. Mencer, I 
understand--I don't disagree with anything you've said, but if 
I had an anti-terrorism expert here on this panel, he would 
tell you--because I've heard their testimony--that there are 
certain areas of the country--i.e., large urban areas--that are 
more likely targets than rural areas are. I mean, it's just a 
fact. And I can't guarantee that they won't go to the remotest 
part of America to seek to harm America, but it's pretty 
obvious that any terrorist is going to go where they can 
inflict the most damage. And so I hope that you all will work 
up the courage to take on rural legislators and go with the 
opinions of the experts on how we can best combat terrorism in 
this country, and that, I think, probably argues at least for a 
thorough examination of this formula.
    I've always been somewhat opposed to sending so much money 
to the East Coast, certainly in the form of Amtrak funds, but I 
do believe that you should make recommendations to the Congress 
based on the best opinions you can get, as far as the anti-
terrorism experts are concerned. And I hope you will undertake 
to get that input from various agencies of government.
    So I think it's an important issue, because funds are not 
unlimited. We are going to face some kind of fiscal crunch here 
in America, given the burgeoning deficits, and cuts are going 
to be made, even in the Department of Homeland Security, I'm 
sorry to say.
    Finally, Ms. Mencer, concerns have been raised by some of 
the fire-service's organizations that the President's budget 
would not fund grant applications to support fire-prevention 
education, EMS, and firefighter wellness and fitness 
initiatives. Can you respond to that?
    Ms. Mencer. Yes, sir.
    As I mentioned in my opening statement, we do have a 
separate application process, beginning in September of this 
year, for fire prevention. So it is about, I believe, 78 
million for fire prevention. So we are looking at doing that in 
the fall of this year.
    The Chairman. Chief?
    Chief Paulison. And I have to support exactly what she 
said. When the--we allowed the departments to apply for what 
they wanted to apply for, and the bulk of the applications come 
in for operational needs. Very little of the moneys--I think 
it's less than 1 percent--are actually asked for fire-
prevention programs. So we do have a separate fire-prevention 
program set-aside, and we've done that for the entire length of 
the grant process, and it works very well. We have some really 
unique programs that are happening out there.
    State of Delaware, for instance, Delaware Firefighters 
Association received a grant to put a smoke alarm in every home 
in the state of Delaware. Quite a task they took on. Did a 
great job at it.
    The Chairman. Thank you.
    Since we have inaugurated a lot of new programs, I hope 
that you will continue to audit each for its effectiveness and 
best use of the taxpayers' dollar. The one thing we don't want 
to see is to hear about X millions of dollars that have been 
spent on a program that was wasted. And when we're talking 
about the kinds of money you will continue to receive, I would 
strongly recommend you keep a close eye on which programs, and 
have a system in place so that you can gauge the effectiveness 
or lack of effectiveness of various programs. Many of these are 
new, as we all know.
    I thank you. Thank you for your testimony here this 
morning. And we will, as I mentioned, hold a markup next week, 
and try and get this done. I know that the House is eager to 
get it done, as well.
    Thank you very much.
    Chief Paulison. Thank you, Mr. Chairman.
    Ms. Mencer. Thank you, Mr. Chairman.
    The Chairman. Our next panel is Chief Ernest Mitchell, the 
President of the International Association of Fire Chiefs; Mr. 
James Monihan--he's the Legislative Committee Chairman of the 
National Volunteer Fire Council; the Honorable James M. 
Shannon, who is the President and Chief Executive Office of the 
National Fire Protection Association; and Mr. Billy Shields, 
who is the President of the United Phoenix Firefighters, and 
Vice President of the Professional Firefighters of Arizona.
    Please come forward. Welcome to the witnesses. And, Chief 
Mitchell, we'll begin with you, and thank you for your 
appearance here today.

     STATEMENT OF CHIEF ERNEST MITCHELL, (RET.), PASADENA,

           CALIFORNIA FIRE DEPARTMENT AND PRESIDENT,

        INTERNATIONAL ASSOCIATION OF FIRE CHIEFS (IAFC)

    Chief Mitchell. Well, thank you, Mr. Chairman and Members 
of the Committee. And thank you for holding this hearing on 
this very important Federal grant program.
    I'm Ernest Mitchell, recently retired Fire Chief of the 
City of Pasadena, California, and I appear today as President 
of the International Association of Fire Chiefs, which 
represents the leadership and management of America's fire and 
emergency services.
    America's fire service is the only entity that is locally 
situation, staffed, and equipped to respond to all types of 
emergencies across our country. America's fire service is an 
all-risk, all-hazard response entity. The FIRE Act helps raise 
the level of capability for all departments for all hazards. 
For that reason, the FIRE Act is one of the most important 
relationships between the Federal Government and the fire 
service.
    Mr. Chairman, the FIRE Act works. It works because of the 
notion of local control. Local fire chiefs, in consultation 
with their firefighters and community leaders, decide what is 
most important to the community. These requests are then 
competitively reviewed by the people that are most familiar 
with the needs, local fire-service representatives from across 
the country. Finally, the local community must buy into the 
grant by providing matching funds and agreeing that Federal 
dollars will not supplant regular local funding to the fire 
department. This consistent level of local involvement and 
control lies at the very heart of the FIRE Act's sustained 
success.
    Mr. Chairman, I have submitted a written statement for the 
record today. I would like to highlight two key points of the 
statement.
    The Chairman. All written statements will be made part of 
the record.
    Chief Mitchell. First, I respectfully ask the Members of 
this Committee to amend this bill and restore jurisdiction over 
the FIRE Act to the U.S. Fire Administration. The IAFC 
supported placing the U.S. Fire Administration in charge of the 
FIRE Act in the initial authorization, and we support it in the 
House version of this bill. We remain concerned that the Office 
of Domestic Preparedness is turning the FIRE Act into a 
terrorism-based program. This is despite ODP's assurances that 
the FIRE Act would remain an all-hazards program, and despite 
explicit directions from Congress that it remain an all-hazards 
program.
    In my written testimony, I describe the experience of one 
of my colleagues, Chief Ben Estes, retired chief of the 
Pocatello, Idaho, fire department, and current president of the 
Idaho Fire Chiefs Association. ODP invited representatives from 
several state homeland security departments, including Chief 
Estes, to come to Washington, D.C. this past May to participate 
in the review of FIRE Act grant applications that request 
equipment or training related to chemical, biological, 
radiological, nuclear, or explosive threat. And this is a new 
level of review instituted by ODP. Unlike the peer-review 
process in place for the remainder of the FIRE Act 
applications, the reviewers were almost exclusively employees 
of state homeland security departments. Very few had any fire 
service experience. Chief Estes was the rare exception.
    As I describe in my written testimony, the questions this 
panel asked gave the state officials effective veto power over 
a fire department's funding request if the state intended to 
provide the training or equipment. This means that legitimate 
fire department needs could be vetoed if the state even had the 
vaguest intention of providing the training or equipment.
    And, Mr. Chairman, as I'm sure you are well aware, 
government agencies often intend to do things that, in reality, 
are often long delayed, if ever actually delivered.
    Chief Estes also gathered, during the group's discussions, 
that they would like to exert significantly more control over 
the fire--over all FIRE Act funding. If that were to happen, 
one of the reasons the FIRE Act is success a success, the 
element of peer review, would be lost. Also lost would be the 
crucial focus on all hazards.
    My second request of this Committee, Mr. Chairman, is to 
strike the provision in this bill that would make volunteer EMS 
organizations eligible to receive grants. The FIRE Act is meant 
to improve the readiness and response of local fire 
departments. Opening up the program to non-fire-service 
recipients would erode this singular focus. Once the door has 
been opened to expand the list of eligible agencies, Congress 
would get requests to further expand the program from EMS 
agencies affiliated with hospitals, third-service career 
agencies, and from private for-profit corporations. The FIRE 
Act would then cease to be a core fire service program.
    Also, please bear in mind that EMS is an integral part of 
local fire services, and one that currently benefits from the 
FIRE Act, particularly under changes made in Fiscal Year 2004. 
In order to increase the amount of funding directed toward the 
EMS program category, EMS was incorporated into the operations 
and firefighter safety category. By doing so, grant requests 
for EMS training and equipment have increased, because fire 
chiefs are able to work them into larger requests that address 
other fire department functions.
    To give one example of the success of this change, the 
total dollar amount requested for EMS increased from less than 
$17 million in Fiscal Year 2003 to more than $66 million in 
Fiscal Year 2004. This is close to a four-fold increase.
    The fact that this bill will place a special priority on 
automatic external defibrillators is also a benefit to fire-
based EMS services. While we generally do not endorse favoring 
one piece of equipment over another in the FIRE Act grant 
process, we do endorse this provision, because heart attacks 
are consistently the number one cause of firefighter 
fatalities. I'm convinced that if more emergency-response 
vehicles had AEDs available, we could save more firefighter 
lives.
    And, finally, Mr. Chairman, it is important to recognize 
that volunteer EMS agencies have significant EMS-specific 
funding streams available to them that are not available to 
many fire departments--most significantly, third-party 
reimbursement for ambulance transport.
    Pre-hospital emergency medical care is composed two 
distinct services: first responder, and ambulance transport. 
The fire service is the overwhelming provider of EMS first 
response across the United States. This service is very 
expensive, and local taxpayers are responsible for it.
    The other component of EMS is ambulance transportation. A 
much wider variety of providers are available for this service, 
including for-profit corporations, hospitals, government third-
service, and volunteer EMS agencies. This broader mix is likely 
explained by the fact that ambulance transport is eligible for 
third-party reimbursement. As a result, most ambulance 
transport providers bill patients and their insurance companies 
for every ambulance response. Medicare alone reimburses more 
than $3 billion for ambulance transportation annually. 
Additional reimbursement comes from Medicaid, private insurers, 
and the patients themselves. As I noted earlier, first response 
services are not eligible for any of this funding. The 
financial burden falls almost exclusively on the fire service.
    I want to thank you for this opportunity to testify, Mr. 
Chairman, and I look forward to answering any questions you may 
have.
    [The prepared statement of Chief Mitchell follows:]

    Prepared Statement of Chief Ernest Mitchell, (Ret.), Pasadena, 
California Fire Department; and President, International Association of 
                           Fire Chiefs (IAFC)
    Mr. Chairman and members of the Committee, I am Ernest Mitchell, 
recently retired Chief of the Pasadena (CA) Fire Department. I appear 
today as President of the International Association of Fire Chiefs 
(IAFC), which represents the leadership and management of America's 
fire and emergency service.
    America's fire and emergency service reaches every community across 
the nation, protecting urban, suburban, and rural neighborhoods. Nearly 
1.1 million men and women serve in more than 30,000 career, volunteer, 
and combination fire departments across the United States. The fire 
service is the only entity that is locally situated, staffed, and 
equipped to respond to all types of emergencies. Members of the fire 
service respond to natural disasters such as earthquakes, tornadoes, 
and floods as well as to manmade catastrophes, both accidental and 
deliberate. As such, America's fire service is an all-risk, all-hazard 
response entity.
The FIRE Act Grant Program Works
    Mr. Chairman, in your invitation you asked witnesses to address S. 
2411, the bill to reauthorize the Assistance to Firefighters Grant 
Program, better known as the FIRE Act. The FIRE Act is one of the most 
important relationships between the Federal government and the fire 
service. On behalf of the members of the IAFC, I thank you for holding 
this hearing.
    We consistently hear from our members that they have a great number 
of needs to be met, ranging from fire apparatus to self-contained 
breathing apparatus to training. We are pleased to note, Mr. Chairman, 
that this bill would authorize a new survey to determine the current 
level of need in America's fire service. We are also very pleased that 
this bill would reauthorize a highly effective Federal grant program.
    Congressional, administration, and fire service officials alike 
have called the FIRE Act one of the very best Federal grant programs. 
The U.S. Department of Agriculture (USDA) issued a program analysis in 
2003, proclaiming that the FIRE Act works. In USDA's own words, the 
FIRE Act ``has been highly effective in increasing the safety and 
effectiveness of grant recipients . . . 99 percent of program 
participants are satisfied with the program's ability to meet the needs 
of their department . . . [and] 97 percent of program participants 
reported positive impact on their ability to handle fire and fire-
related incidents.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Agriculture Executive Potential Program Team 
6, Survey, Assessment, and Recommendations for the Assistance to 
Firefighters Grant Program, Final Report, prepared for the U.S. Fire 
Administration, Federal Emergency Management Agency, January 31, 2003, 
p. 40 (emphasis removed).
---------------------------------------------------------------------------
    There are good reasons for the FIRE Act's success, and they are the 
five pillars of the program.
    First, funds go directly to local fire departments for the purposes 
intended. There is no opportunity for the money to get bottlenecked at 
intermediate levels as is the case with so much other first responder 
funding.
    Second, grants are awarded on a competitive basis, and not based on 
a pre-determined formula. We cannot equip this Nation's fire service 
with a one-size-fits-all formula. Formulas cannot account for whether a 
particular community is a city with mostly high-rise buildings, or 
whether it is an area out west that is more susceptible to wildland 
fires. Formulas cannot account for local budgets, or the age and level 
of use of the equipment in each of this Nation's 30,000-plus fire 
departments. If a fire chief can make a good case for a grant, the 
competitive process will acknowledge that.
    The third pillar of the FIRE Act is that grant applications are 
peer-reviewed. That means fire service people are looking at fire 
service grants. Experienced and informed members of the fire service 
community know what kinds of equipment and training we really need.
    The fourth point is that grants are supplemental only; they may not 
supplant local funds. The point of the FIRE Act is to raise the 
capability of fire departments across the country, not to replace line 
items in local budgets. A local community may not reduce the 
department's budget to offset a FIRE Act grant.
    The fifth and final pillar of the FIRE Act's success is that it 
requires a co-payment by the community. This is really a requirement of 
community ``buy-in'' to the idea of improving the fire service and, 
therefore, advancing public safety. It is a clear demonstration of a 
community's partnership with the Federal government to increase the 
capability of protecting this Nation's critical infrastructure.
Local Control Must Be Maintained
    Perhaps the most prominent theme that unifies the five pillars of 
the FIRE Act is local control. Local fire chiefs, in consultation with 
their firefighters and community leaders, decide what is most important 
to the community. These requests are then competitively reviewed by the 
people that are most familiar with the needs: local fire service 
representatives from across the country. Finally, the local community 
must ``buy-in'' to the grant by providing matching funds and agreeing 
that Federal dollars will not supplant regular local funding to the 
fire department. I submit to you, Mr. Chairman, that this consistent 
level of local involvement and control lies at the very heart of the 
FIRE Act's sustained success.
    We are concerned that this local control is being eroded. One 
example is the fact that the Office for Domestic Preparedness (ODP), 
which is now in charge of administering the FIRE Act, for the most part 
administers grants that go through the states. FIRE Act grants, on the 
other hand, go directly to local fire departments.
    Another example is the current emphasis by ODP on the fire 
service's response to chemical, biological, radiological, nuclear and 
explosive (CBRNE) incidents. As you are aware, formal management of the 
FIRE Act was transferred this fiscal year from the U.S. Fire 
Administration (USFA) to ODP. While ODP has committed to running this 
program in substantially the same manner as the USFA, we are concerned 
about the strong emphasis on terrorism response. Acts of terrorism are 
just some of the many hazards to which America's fire service responds. 
Congress has made it clear that the FIRE Act is intended to build the 
basic tools of firefighting in order to enhance our all-hazards 
response \2\. We are concerned that ODP's emphasis on terrorism might 
undermine this overarching goal and begin the transformation of the 
FIRE Act into a terrorism response program.
---------------------------------------------------------------------------
    \2\ See, for example, appropriations report language for FY2003: 
``The conferees have agreed to establish this new appropriations 
account for firefighter assistance grants [the Emergency Management 
Planning and Assistance account] so that there will be no doubt as to 
the importance of this program and to protect this program from being 
lost in the morass of the Department of Homeland Security'' (H.R. Rep. 
No. 108-010, Title III (2003)).
    In report language for FY2004, Congress said: ``This Committee . . 
. recommends the program remain in the Emergency Preparedness and 
Response Directorate in a separate appropriation so there is no doubt 
as to its importance, and to protect this program from being lost in 
the first responders grant programs'' (H.R. Rep. No. 108&not; 169, 
Title III (2004)).
---------------------------------------------------------------------------
    To illustrate this point, I would like to talk about the experience 
of one of my colleagues, Chief Ben Estes, retired chief of the 
Pocatello (ID) Fire Department and current president of the Idaho Fire 
Chiefs Association. ODP invited representatives from several state 
homeland security departments to come to Washington, DC this past May 
to participate in the review of FIRE Act grant applications that 
request CBRNE-related equipment or training. The state of Idaho asked 
Chief Estes to attend on its behalf. This is a new level of review 
instituted by ODP. I believe it is meant to ensure that money is not 
duplicative and is spent in a coordinated fashion, both of which are 
important goals for any Federal program.
    However, unlike the peer-review process in place for the remainder 
of the FIRE Act applications, the reviewers were almost exclusively 
employees of state homeland security departments. Very few had any fire 
service experience; Chief Estes was the rare exception.
    Chief Estes said that the panel asked three main questions of grant 
applications:

        1. Is the application consistent with the state's homeland 
        security plan?

        2. Does the requested training duplicate anything the state has 
        provided, or intends to provide, the applicant?

        3. Are there any specific items that you recommend not receive 
        FIRE Act grant money?

    Chief Estes thought that question one was within the appropriate 
scope of this group's review, although he expressed concern that this 
particular group of individuals had little understanding of what fire 
departments do and how they do it. Chief Estes had serious concerns 
with questions two and three.
    Question two allowed state officials to effectively veto a fire 
department's funding request if the state ``intended'' to provide the 
training or equipment. This question means that legitimate fire 
department needs could be vetoed if the state had only the vaguest of 
intentions to provide the training or equipment. Mr. Chairman, as you 
are well aware, government agencies often intend to do things that in 
reality are often long-delayed, if ever actually delivered.
    Question three is problematic because it allowed state officials 
effective veto power over particular classes of equipment or training 
that departments may request. Chief Estes was also concerned about the 
general discussions among this group that they wanted to exert 
significantly more control over all of the funding that went out 
through this program.
    Mr. Chairman, I ask that you amend this bill to move the FIRE Act 
back within the jurisdiction of the USFA. The IAFC supported placing 
the USFA in charge of the FIRE Act in the initial authorization, and we 
support it in H.R. 4107, the companion reauthorization bill in the U.S. 
House of Representatives. The USFA has very successfully managed this 
program, and we commend Administrator David Paulison for his 
outstanding leadership.
The FIRE Act Should Remain a Fire Service Program
    We are also concerned about the provision in this bill to make 
volunteer emergency medical service (EMS) organizations eligible to 
receive grants. Providing financial assistance to volunteer EMS 
organizations--indeed, any EMS organizations--is a laudable goal. 
However, modifying the FIRE Act is not the best way to accomplish that 
goal. The FIRE Act is meant to improve the readiness and response of 
local fire departments. Maintaining this clearly defined purpose is 
critical to the long-term success of the program. Opening up the 
program to non-fire service recipients would erode this singular focus. 
Once the door has been opened to expand the list of eligible agencies, 
Congress would get requests to further expand the program from EMS 
agencies affiliated with hospitals, third service career agencies, and 
from private, for-profit corporations. The FIRE Act would then cease to 
be a core fire service program.
    Also, please bear in mind that EMS is an integral part of 
firefighting. In fact, the Bureau of Labor Statistics definition of 
firefighting is: ``Control and extinguish fires or respond to emergency 
situations where life, property, or the environment is at risk. Duties 
may include fire prevention, emergency medical service, hazardous 
material response, search and rescue, and disaster management.'' \3\ 
The Fair Labor Standards Act defines an ``employee in fire protection 
activities'' to include ``a firefighter, paramedic, emergency medical 
technician, rescue worker, ambulance personnel, or hazardous materials 
worker . . .[.]'' \4\
---------------------------------------------------------------------------
    \3\ U.S. Department of Labor, Bureau of Labor Statistics, Standard 
Occupational Classification 33-2011: Fire Fighters (emphasis added)
    \4\ 29 U.S.C. 203(y) (as amended by P.L. 106-151).
---------------------------------------------------------------------------
    The fire-based EMS community does benefit under the current version 
of the FIRE Act, particularly under changes made in Fiscal Year 2004. 
In order to increase the amount of funding directed toward the EMS 
program category, EMS was incorporated into the operations and 
firefighter safety category. Representatives from fire service 
organizations recognized that by incorporating EMS funds into this 
larger category, grant requests for EMS training or equipment would 
increase because fire chiefs could work them into larger requests that 
addressed other fire department functions. Preliminary data from the 
USFA, which is listed below, indicates that this administrative change 
has significantly increased both the number of applications and the 
total dollar amount of funding requested in the EMS program area. \5\ 
For example:
---------------------------------------------------------------------------
    \5\ Since no awards have yet been made, only statistics for 
application requests are available.

  <bullet> The number of EMS applications increased from 216 to 2,584. 
---------------------------------------------------------------------------
        This is nearly an eleven-fold increase.

  <bullet> The total dollar amount requested for EMS increased from 
        less than $17 million to more than $66 million. This is close 
        to a four-fold increase.

  <bullet> As a percentage of total applications, requests for EMS 
        funding increased from one percent to 12.7 percent.

  <bullet> As a percentage of total funding requests, EMS increased 
        from 0.7 percent to 2.5 percent.

    We also note, with appreciation and support, that S. 2411 would 
allow applicants to request funds for automated external defibrillator 
(AED) devices, and that the bill would provide a match reduction 
incentive to apply for these devices. According to USFA statistics, the 
leading cause of fatal injuries to firefighters is heart attack. In 
fact, in a retrospective study of firefighter fatalities from 1984 to 
2000, the proportion of firefighter fatalities from heart attacks 
remained constant over that 16 year period.\6\ I am convinced that if 
more emergency response vehicles had an AED available, we could save 
more firefighters' lives. Therefore, while we generally do not endorse 
favoring one piece of equipment over another in the FIRE Act grant 
process, we do endorse this provision to promote the use of AEDs.
---------------------------------------------------------------------------
    \6\ TriData Corporation, Firefighter Fatality Retrospective Study, 
prepared for the Federal Emergency Management Agency, United States 
Fire Administration, National Fire Data Center, April 2002, pp. 23-24.
---------------------------------------------------------------------------
    Finally, Mr. Chairman, it is important to recognize that volunteer 
EMS agencies have significant EMS-specific funding streams available to 
them that are not available to many fire departments, most 
significantly, third-party reimbursement for ambulance transport. Pre-
hospital emergency medical care is composed of two distinct services: 
first response and ambulance transport. The fire service is the 
overwhelming provider of EMS first response across the United States. 
Strategically placed in the community for rapid response, fire 
departments quickly get trained medical personnel to a patient's side 
after 9-1-1 is called. As you can imagine, sustaining this level of 
rapid response is very expensive and the burden of this cost falls 
exclusively on local taxpayers. Because of antiquated Federal Medicare 
laws, EMS first response is not eligible for third-party reimbursement.
    The other component of EMS is ambulance transport. This service is 
provided by a much wider variety of providers, including for-profit 
corporations, hospitals, government third-service, and volunteer EMS 
agencies, as well as fire departments, which provide only one-third of 
ambulance transports.\7\ This broader mix of providers is explained by 
the fact that ambulance transport is eligible for third-party 
reimbursement. As a result, most ambulance transport providers bill 
patients and their insurance companies for every ambulance run. 
Medicare alone reimburses more than $3 billion for ambulance transport 
annually. Additional reimbursement comes from Medicaid, private 
insurers, and the patients themselves. As noted earlier, EMS first 
response services are not eligible for any of this funding and this 
financial burden falls almost exclusively on the fire service. The FIRE 
Act is one of the only sources of funding--aside from local taxpayer 
dollars--for fire departments that provide this important, and 
expensive, service to their communities.
---------------------------------------------------------------------------
    \7\ Findings from the 1999 National Survey of Ambulance Providers, 
Final Report, March 2000, p. 13. This report was conducted by Project 
HOPE Center for Health Affairs in conjunction with the negotiated 
rulemaking process that accompanied the development of the Medicare 
ambulance fee schedule.
---------------------------------------------------------------------------
    In light of the significant funding already available for ambulance 
transport, the administrative changes that are targeting more funding 
toward EMS, and the fact that S. 2411 would promote the use of AEDs, I 
urge you, Mr. Chairman, not to open this grant program beyond America's 
fire service. When we look at the potential number of increased 
applicants, the potential decrease in available appropriations over the 
next few years, and the significant number of basic unmet needs in the 
fire service, we remain very concerned about the impact of the EMS 
language in this bill.
Funding Caps Must Be in Place
    The IAFC is concerned also about two provisions of the bill that 
deal with funding levels. The first is about the cap on grant funding. 
The bill would set a grant cap of the greater of $2,250,000 or the 
amount equal to one-half of one percent of the total amount of 
appropriated funds. This formula could grant an unreasonable amount of 
money to any one jurisdiction. We support the grant cap language in the 
House bill (H.R. 4107), which simply says, ``no single recipient may 
receive more than one half of one percent of the funds appropriated 
under this section for a single Fiscal Year.'' This language would 
ensure an equitable distribution of funds no matter what a particular 
year's appropriation may be.
    The bill would also increase the funds available for fire 
prevention and firefighter safety programs from five percent to six 
percent. Five percent is the amount that we supported in the original 
law, and it is the amount that we support in the House bill. The IAFC 
is committed as much to preventing fires as we are to extinguishing 
them. We are also committed to promoting and ensuring firefighter 
safety. However, funds for those types of activities must be balanced 
against the dire need for improving emergency response equipment and 
training. Increasing the amount of funds available for fire prevention 
and firefighter safety would start us on a slippery slope of dedicating 
more of the funding that is needed to serve the FIRE Act's core 
purposes.
Technical Corrections
    We suggest three technical corrections to this bill, which I will 
simply outline in bullet form below. The suggested changes are 
underlined.

  <bullet> Page 4, lines 16-21 should read: ``(ii) ANNUAL REVIEW OF 
        CRITERIA.--Not less often than once each year, the Secretary of 
        Homeland Security, in consultation with the Administrator, 
        shall convene a meeting of individuals who are members of 
        national fire service organizations. . . [.]'' The current 
        wording--``members of a fire service''--would be overly vague.

    We would also like to see the bill specify the organizations to be 
        involved. In February of 2004, 10 major fire service 
        organizations submitted to Congress a white paper detailing our 
        requests for this reauthorization. In our suggested bill 
        language, we specified the organizations that represent 
        America's fire service experts in an effort to be as clear as 
        possible about who should be involved in setting grant 
        criteria.\8\ Congress often specifies organizations to be 
        involved in particular studies or projects, and this should be 
        no exception. The organizations we specified are longstanding 
        and well-established, and are likely to still be in business in 
        2010, when this reauthorization is set to expire.
---------------------------------------------------------------------------
    \8\ The organizations listed in the white paper are the 
Congressional Fire Services Institute, International Association of 
Arson Investigators, International Association of Fire Chiefs, 
International Association of Fire Fighters, International Fire Service 
Training Association, International Society of Fire Service 
Instructors, National Fire Protection Association, National Volunteer 
Fire Council, North American Fire Training Directors, and ``any other 
non-federal fire service organization the Secretary deems necessary.''

  <bullet> Page 5, lines 5-12 should read: ``(i) REQUIREMENT FOR 
        REVIEW.--The Secretary of Homeland Security shall award grants 
        under this section based on the review of applications for such 
        grants by a panel of fire service personnel appointed by 
        national organizations recognized for expertise in the 
        operation and administration of fire services.'' The current 
        wording--``by a national organization''--would allow only one 
---------------------------------------------------------------------------
        organization to select the reviewing panel.

  <bullet> On pages 10-11, the term ``first due emergency vehicles'' 
        should be replaced with ``emergency response vehicles.'' The 
        term ``first due'' literally applies to the vehicle that 
        arrives first on the scene. It is a term used by the fire 
        service that the bill as currently written would incorrectly 
        define.
Conclusion
    In conclusion, I would like to thank you, Mr. Chairman, for 
cosponsoring this bill and for holding this hearing on a most important 
Federal grant program. The FIRE Act is an endeavor for which the 
taxpayers and the Federal government can--and should--be proud.
    I will be happy to answer any of your questions.

    The Chairman. Thank you very much.
    We're joined by our Senate colleagues, Senator Dodd and 
Senator DeWine, who are the prime sponsors of this legislation. 
I'd like to welcome them.
    And, Senator Dodd, if you'd like to begin any remarks, and 
then Senator DeWine--and we know you have a very heavy 
schedule, and we appreciate you coming by the Committee to 
discuss this important legislation with us.

            STATEMENT OF HON. CHRISTOPHER J. DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. Well, thank you very much, Mr. Chairman. And 
we apologize in arriving a bit late here. We're having this 
briefing up in room 407, and so please forgive us for coming a 
little bit late and interrupting the flow of your testimony 
here this morning.
    And I'd ask unanimous consent that some opening comments 
that we have here be included in the record, if that's 
appropriate.
    The Chairman. Without objection.
    [The prepared statement of Senator Dodd follows:]

            Prepared Statement of Hon. Christopher J. Dodd, 
                     U.S. Senator from Connecticut
    Thank you, Chairman McCain and Senator Hollings, for holding this 
hearing on the reauthorization of the Assistance to Firefighters Grant 
Initiative, or the FIRE Act. I also want to commend both of you for 
your outstanding leadership on behalf of firefighters in your state and 
across the Nation.
    I am pleased to be joined by my friend and colleague Senator 
DeWine, who is the co-author of this important legislation. We worked 
together on the original FIRE Act four years ago when the world was a 
very different place.
    In fact, I remember testifying before the Senate Commerce Committee 
in July 2000 on how local fire departments across America lacked the 
resources to handle such challenges as an interstate highway accident, 
an airplane crash, an incident involving hazardous materials, or a fire 
spread over a large area. The challenges associated with responding to 
an act of terrorism were mentioned, but few of us dared to imagine that 
a large-scale terrorist attack within the borders of the United States 
was an imminent possibility.
    Of course, our worst fears became a reality on September 11, 2001. 
On that tragic day, 343 members of the New York Fire Department made 
the ultimate sacrifice in their efforts to save thousands of people 
trapped in the World Trade Center. Many firefighters in the Washington, 
D.C. area also demonstrated their heroism by rescuing people trapped in 
the burning ruins of the Pentagon.
    In the aftermath of that terrible day, and nearly a year after the 
original FIRE Act was enacted, firefighters are facing new and profound 
challenges. In addition to their traditional responsibilities of 
extinguishing fires, promoting fire safety, and ensuring that fire 
codes are inspected, they have new homeland security responsibilities 
such as responding to chemical, biological, and nuclear threats. It is 
therefore not an exaggeration to say that the Nation's firefighters are 
literally serving on the front lines of the War on Terror, protecting 
the homeland from the real and present danger of future terrorist 
attacks.
    According to a national Needs Assessment study of the U.S. Fire 
Service published in December 2002, most fire departments lack the 
necessary resources and training to properly handle acts of terrorism 
and large-scale emergencies. A June 2003 Council of Foreign Relations 
report authored by former Senator Warren Rudman further underscored 
this issue when it concluded that ``if the Nation does not take 
immediate steps to better identify and address the urgent needs of 
emergency responders, the next terrorist incident could have an even 
more devastating impact than the September 11 attacks.''
    Since the original FIRE Act was enacted, firefighters are in fact 
able to do more. They can respond more quickly to the 21 million calls 
that come in each year to local fire departments. They can reduce the 
number of people who die or suffer injuries in fires each year. 
Furthermore, they are better prepared to handle what once seemed 
unthinkable, but what we now know after September 11 can happen 
anywhere at anytime. I know from speaking to firefighters in my home 
state of Connecticut what a difference the FIRE Act has made over the 
last four years. It has benefited fire departments large and small, 
paid and volunteer, urban and rural. Firefighters are able to purchase 
equipment they once could not afford, undergo training that they never 
had, and provide more effective protection to groups such as children 
and the elderly that have long been at high-risk for fire-related 
injuries. In fact, a report last year by the Federal government found 
that ``overall. . .the Assistance to Firefighters Grant Program was 
highly effective in improving the readiness and capabilities of 
firefighters across the Nation.'' The FIRE Act grant initiative is 
truly a success story.
    The reauthorization bill that Senator DeWine and I have introduced 
makes a number of significant improvements to the original FIRE Act. It 
builds on the recommendations given to us last February by the paid and 
volunteer fire services which know from first-hand experience the 
impact that these FIRE Act grants have had. For example, the 
reauthorization legislation makes the size of the FIRE Act grants and 
the local matching requirements more equitable. It also enhances fire 
safety and fire prevention programs, and it tackles the leading cause 
of death among firefighters in the line of duty--heart attacks--by 
creating an incentive for fire departments to acquire life-saving 
automated external defibrillator equipment for every first-due vehicle.
    Mr. Chairman, I look forward to working with you, Senator Hollings, 
and the entire Senate Commerce Committee to ensure that this important 
initiative is quickly reauthorized. I am especially grateful to you, 
Chairman McCain, for your willingness to consider this bill as part of 
the FY2005 Department of Defense Reauthorization Act.
    There is an immediate need for the Committee to act, given that the 
program expires at the end of the current Fiscal Year. The legislation 
that Senator DeWine and I have authored also has significant support 
among Senators from both sides of the aisle as well as from the fire 
services.
    Again, thank you, Mr. Chairman, for holding this hearing, and for 
your commitment to the Nation's firefighters.

    Senator Dodd. And let me begin by thanking both you and 
Senator Hollings for doing this. You and I have talked about 
this on numerous occasions, and no one has been more generous, 
in terms of Committee jurisdiction than allowing this measure 
to go forward in the manner it has over the last few years by 
being a part of the Defense Department authorization bill. And 
you've been tremendously understanding and tremendously 
forthcoming in your willingness to work on a bill that would--
that we think makes a significant difference. And I think 
having this hearing and developing a piece of legislation out 
of the appropriate Committee of jurisdiction, to then become a 
part of whatever the DOD authorization conferences involves, is 
the proper way to go, and I'm particularly grateful to you for 
that.
    The Chairman. Thank you.
    Senator Dodd. And I want to commend my colleague from Ohio. 
We work on a lot of legislation together, serve on committees 
together, and there's no better partner to have in the U.S. 
Senate than Mike DeWine when you work on issues together. And 
so I'm pleased to be joined together with him this morning in 
making a few opening comments to you about all of this. 
Obviously, the--I remember testifying before the Commerce 
Committee in July 2000, about 4 years ago, on how local fire 
departments across the country lack the resources to handle 
such challenges as interstate highway accidents, airplane 
catastrophes, incidents involving hazardous materials, and the 
like. The challenges associated with responding to the act of 
terrorism were mentioned. Few of us in the year 2000 would 
imagine that we'd be faced with the events that we faced on 9/
11, where 343 firefighters paid the ultimate price on that 
horrible, horrible day. Many firefighters in Washington, D.C., 
have also demonstrated their heroism by rescuing trapped people 
in the burning ruins of the Pentagon.
    In the aftermath of that terrible day, nearly a year after 
the original FIRE Act was enacted, firefighters are facing new 
and profound challenges. In addition to their traditional 
responsibilities of extinguishing fires and promoting fire 
safety, ensuring that fire codes are inspected, they have a new 
homeland security responsibility, such as responding to 
chemical, biological, and nuclear threats. It's, therefore, not 
an exaggeration to say that the Nation's firefighters, the 
33,000 departments across this country who respond to 21 
million calls every year, are literally serving on the front 
lines of the war on terror, protecting the homeland from real 
and present danger of future terrorist attacks.
    According to the National Needs Assessment Study of the 
U.S. Fire Service published in 2002, most fire departments lack 
necessary resources and training to properly handle acts of 
terrorism and large-scale emergencies. A June 2003 Council of 
Foreign Relations Report authored by our former colleague, 
Warren Rudman, further underscored the issue when it concluded, 
and I quote, ``If the Nation does not take the immediate steps 
to better identify and address the urgent needs of emergency 
responders, the next terrorist incident could have an even more 
devastating impact than the September 11 attacks.''
    Mr. Chairman, since the original FIRE Act was enacted, 
firefighters are, in fact, able to do more. They can respond 
more quickly, as I mentioned, to 21 million calls that come in 
each year to local departments across the country. They can 
reduce the number of people who die and suffer injuries in 
fires each year. And, furthermore, they are better prepared to 
handle what once seemed unthinkable, but we now know, after 
September 11, can happen anywhere at any time.
    I know, from speaking to firefighters in my home state of 
Connecticut, what a difference the FIRE Act has made over last 
4 years. It's benefited fire departments, large and small, paid 
and volunteer, urban and rural. Firefighters are able to 
purchase equipment they once could not afford, undergo training 
they never had, and provide more effective protection to groups 
such as children and elderly, who have long been at high risk 
for fire-related injuries. In fact, a report last year by the 
Federal Government found, and I quote, ``Overall, the 
Assistance to Firefighters Grant Program is highly effective in 
improving the readiness and capabilities of firefighters across 
the Nation.''
    And the reauthorization bill that we've proposed in this 
hearing, which will further shape that legislation, we think 
will make some improvements to the original FIRE Act, including 
raising the caps, providing for additional resources to larger 
cities, recognizing the distinction between smaller towns, mid-
sized cities, and larger ones, and not allowing an excessive 
amount to go to large urban areas, but certainly getting above 
the 750,000 cap and recognizing that large cities, like New 
York, like Phoenix, like L.A., deserve far more consideration 
than the amounts they were getting before for the problems that 
they're likely to face; not to suggest that smaller communities 
don't face challenges and may not be on the front lines when 
emergencies occur, but certainly trying to take into 
consideration.
    There have been other recommendations in the bill, and I 
won't go into all the details of it. I know the Chairman and 
others are familiar with them. Once again, I just want to 
express my gratitude to you. This has, I think, been a good 
program. I think it's made a difference. I think first 
responders certainly--and the firefighters are in that 
category, without any question--are deserving of some help in 
addition to the local and state support they get. And we're 
grateful to you, Mr. Chairman, for listening to these ideas.
    The Chairman. Thank you, Senator Dodd. And I appreciate you 
bringing up the issue of this funding. I just brought it up 
with the previous panel. We're going to have to wrestle with 
that----
    Senator Dodd. Yes.
    The Chairman.--issue, and my suggestion is that we get the 
input from the relative agencies of government--and maybe from 
outside government--that assess terrorist threats. It seems to 
me that that should have some impact on distribution of funds.
    I represent a state that's both urban and rural, and I have 
no problem with trying to make sure that the fire station at 
Snowflake is well taken care of. But I think there is a general 
appreciation that the targets that terrorists would have as a 
priority are large areas of population. It just is a matter of 
logic. And I think it's--it's my understanding that the formula 
has been legislated as to how this distribution of funds--is 
that not correct, Mr. Shannon?
    Mr. Shannon. I believe that the authorization bill deals 
with the formula.
    The Chairman. Well, I hope that, as we move this 
legislation forward quickly--and it needs to be done quickly, 
as we appreciate--that we at least include some provision for a 
way of hashing--resolving, I think, a very important issue; 
because, unfortunately, the funding is not unlimited. So I hope 
that you and Senator DeWine, as prime people involved--Senators 
involved in this issue, would take that on, as well as the rest 
of us.
    Senator Dodd. I thank you, Mr. Chairman. I don't think--I 
don't have any particular--wedded to a formula here. Initially, 
we had authored the bill--we were trying to get resources out. 
I don't disagree with you. Clearly, the larger areas are faced 
with more complicated issues that arise, and that certainly 
should be taken into consideration, which is, in part, what we 
try to do in the reformulation of this a bit.
    And I would say, in defense, I guess, of smaller 
communities, that times can arise when they're called upon 
today. I presume, in Arizona, as in Connecticut, I have smaller 
communities along major interstate highways, for instance, 
where we just had a major problem on Route 95 in Connecticut, 
and it was some of the smaller departments that actually 
responded to that chemical spill on Route 95. So it's--your 
point is well taken, and I agree with it, and I don't think 
you're going to argue with me that there are occasions when, 
obviously, smaller communities can be drawn into some pretty 
serious situations.
    The Chairman. And it may not be necessary.
    Senator Dodd. Yes.
    The Chairman. But there seems to be, at least emanating 
from some major cities, a lot of complaints. So it at least 
ought to be looked at.
    I thank you, Senator Dodd. And I know you have a heavy 
schedule. I thank you for coming by.
    Senator Dodd. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Dodd. Appreciate it.
    The Chairman. Senator DeWine?

                STATEMENT OF HON. MIKE DeWINE, 
                     U.S. SENATOR FROM OHIO

    Senator DeWine. Mr. Chairman, let me thank you for holding 
this hearing.
    And let me also say what a pleasure it is to work with 
Senator Dodd. Senator Dodd and I originally wrote this bill, 
worked on it. And, frankly, the times have changed a little 
bit. We originally wrote this bill, and it passed, and our 
concern, I think, was that there were many jurisdictions in 
this country--and I'm sure the Senator has the same situation 
in Arizona as I do in Ohio and the Senator does in his state--
that fire departments, who also are called upon, many times, to 
be the emergency response--there are many people in this 
country that, if you have a heart attack or if you break your 
arm, as my daughter did a couple of years ago, it was our local 
fire department that came out and transported her to the 
hospital. Many of these departments just did not have the 
resources to do the job they had to do. And because we found 
that as we traveled around our states, we introduced this 
legislation.
    Based on that criteria, of trying to solve that problem, 
this bill has been stunningly successful. I've spent the last 
four or 5 years taking a week every summer, and my wife and I 
and our kids get in an RV, and we travel around the state. And 
one of the things that we do is stop at fire departments, after 
this bill passed.
    The Chairman. That's a large RV?
    Senator DeWine. And we--pardon me?
    The Chairman. It's large RV?
    [Laughter.]
    Senator DeWine. It is a large RV, yes, sir, and it's--and, 
Senator, it's getting bigger, actually, and we're having to get 
a bigger one this year. It's one of the issues we're dealing 
with.
    But we stop and see how this money is being spent. And with 
very, very little overhead, administrative costs from 
Washington, this money is working, and it's being spent for 
safety issues, local education programs in the communities run 
by the fire departments, EMS. It's being spent for much-needed 
equipment. So it's working. It's working very, very well.
    We now are in an era where we are dealing with terrorism, 
and we are looking at these fire departments to deal with the 
spills, the terrorism issues, and other things. And so maybe 
the way we look at this has changed a little bit.
    When Senator Dodd and I, this year, started to put this 
bill together, we had heard the concerns that had been raised, 
that you're talking about, and by the cities, and we looked at 
this, and saw, yes, there is something wrong when Cleveland, 
Ohio, or Phoenix, under the old law, could only get up to 
$750,000, the same cap that my home community of Cedarville, of 
4,000, has. And they're not going to get $750,000, but it's the 
same cap, and there's just something wrong with that. So when 
we wrote this legislation, we came up with a cap--any city over 
a million dollars--the way this bill is written right now, any 
city over a million dollars--or over a million population has a 
cap under this bill, per year, of $2.25 million; any City of 
between a half a million and a million has a cap of $1.5 
million; and below $500,000, it's a cap of a million. Now, 
those are arbitrary figures, and that may not--those may not be 
the right figures. But I think it's a fundamental--Senator Dodd 
and I think it's a fundamental change from what we have done in 
the past, and I think it's going to help a great deal to do 
what we know we have to do, is to target finite dollars that we 
have here in Washington to the places where it's needed the 
most, while, at the same time, trying to keep the original 
intent of the bill, which is also to worry about some of these 
remote jurisdictions, whether in Arizona or Connecticut or Ohio 
or wherever, that, frankly, just don't have the resources. And 
if my grandmother or my mother or someone is having a heart 
attack, they need to get out there and take care of them. So 
it's a balance, and I think I speak for Senator Dodd, we're 
certainly willing to work with this Committee and with your 
good guidance in trying to come up--we have to change these 
numbers and come up with something that works. But that was our 
intent, and that's what we're trying to do.
    We did make, I think, one--another conceptual change in 
this bill, and that is, put more emphasis on safety. And it's 
already been addressed by the panel a little bit, and I think 
it's a movement in the right direction. The reality is, when 
you go around and talk to the fire departments, most of these 
fire departments are doing EMS, and they're doing a great job. 
Their runs--seven out of eight runs, seven of those runs are 
usually EMS runs. And that's not to say that fire runs are not 
important; they're vitally important. But the EMS runs are also 
there, and they're very, very significant. The way this bill is 
written, more of the dollars than in the past--under the old 
bill, only about 1 percent of the dollars went to EMS 
services--more of the dollars are going to go to EMS.
    The only area that there has been a little bit of 
contention about has to do with the freestanding or independent 
EMS departments that are separate and apart from fire. We have 
written this bill so that they could get--share a limited 
amount of this money. That causes, frankly, as you have already 
heard, a little bit of concern from the fire departments. I 
don't think it should. Frankly, Senator Dodd and I, in future 
reauthorizations of this bill, if we are around, are not going 
to open this bill up. It's not our intent to do that. But there 
is a need. And, frankly, these freestanding, nonprofit--
nonprofit--EMS services are the ones who are delivering the 
services to some our citizens in this country. And it makes 
sense that they get a small amount of the money coming from the 
taxpayers in this bill to provide some help to them, as well.
    So I think we've got a very good bill here. We're open to 
suggestions from you, Mr. Chairman, and from the Committee. And 
we just look forward to working with you. And we thank you very 
much for the hearing.
    The Chairman. Thank you for coming. Thank you for your long 
involvement in this issue. And, as I had mentioned earlier, 
we'll have this bill marked up next week and try to get it done 
in an expeditious fashion. I know the House shares our same 
sense of urgency for reauthorization.
    Thank you both. Thanks for coming.
    Mr. Monihan, I apologize for the delay. I'm sure you were 
illuminated and entertained by--during the delay.
    Mr. Monihan. Yes, I must say, you three gentlemen are very 
impressive in your knowledge of this subject. You just about 
gave my testimony.
    The Chairman. Well, then we'll move to Mr. Shannon.
    [Laughter.]
    Mr. Monihan. I said ``just about.''
    [Laughter.]

STATEMENT OF E. JAMES MONIHAN, PAST CHAIRMAN AND DELAWARE STATE 
           DIRECTOR, NATIONAL VOLUNTEER FIRE COUNCIL

    Mr. Monihan. Good morning, Mr. Chairman. I am James 
Monihan. I'm Chairman of the Legislative Committee of the 
National Volunteer Fire Council, and a former Chairman of the 
Council. I've been a firefighter in Lewes, Delaware, EMT and 
fire officer for 47 years.
    The Council provides a voice for the 800,000 men and women 
who staff some 27,000 departments across the Nation. In 
addition to their obvious contribution to their communities as 
first responding domestic defenders, these volunteers represent 
an estimated annual savings of $37 billion. On behalf of these 
folks, I appreciate the opportunity to address the needs of the 
volunteer fire service, and to voice our strong support for 
Senate Bill 2411.
    Passage of that bill is a top priority of the Council. The 
events of 9/11 were a stark reminder to all Americans that the 
fire service is the first responder to all emergencies and the 
first line of defense against terrorist attacks this Nation may 
face. However, we cannot lose sight of the 21 million calls we 
answer each year involving structural fires, wild-land fires, 
EMS responses, hazardous- materials incidents, et cetera--and, 
yes, the cat in the tree, the dog in the drain, and the horse 
in a well.
    Often, local government alone is unable to afford the 
extensive training and equipment that these challenges require, 
and the program assists local fire departments by providing a 
percentage of the needed money, while not supplanting local 
responsibilities to provide adequate fire and emergency medical 
services.
    The FIRE Act is proven to be the most effective program to 
date in providing all fire departments, large and small, 
volunteer, career, and combination, not only with the tools 
they need to perform their day-to-day duties, but also enhances 
their ability to respond to large disasters, such as a 
terrorist incident.
    As we move to prepare for terrorist events at home, we must 
first ensure that local departments have the basic tools they 
need. The program has been successful because it is the only 
Federal program that provides funds directly to the fire 
department, and the fact that the members of the fire service 
have been involved in almost every aspect of the program.
    As written, the bill will codify many of the current 
program regulations that have made it so successful. It 
mandates the current peer-review process, guarantees national 
fire service organizations are represented in setting the 
criteria, and ensures that the program continues to address 
basic fire department needs. It reduces the current local fire 
department matching requirements from 30 to 20 percent for 
departments serving 50,000 or more; and from 10 to 5 percent 
for departments serving 20,000 or fewer. Also, as you 
mentioned, it also realigns the caps. And while we know that 
this is going to shift money to larger departments, the Council 
supports these changes, and we believe that this will target 
areas in need, while still ensuring that the program makes a 
wide impact across the country.
    This legislation opens the program up to volunteer and 
nonprofit emergency medical services providers. And I must 
disagree with Chief Mitchell that, in many parts of the 
country, they are the only emergency medical service providers, 
and, in fact, do protect the fire department.
    It creates an incentive for fire departments to acquire 
automatic external defibrillators--every first new piece of 
equipment. The Council has long advocated the wide 
proliferation of AEDs within the fire service, and this bill 
will help further our efforts.
    I'd also like to address certain provisions which we 
support that are included in the House version, H.R. 4107, but 
not in this bill. In an effort to consolidate the first 
responder program, the FIRE Act, as you heard earlier, was 
transferred to the Office of Domestic Preparedness. However, 
the U.S. Fire Administration, under the leadership of Dave 
Paulison, has spent the last 4 years developing and refining 
the program, and has clearly demonstrated the capability to 
efficiently distribute these funds to local fire departments. 
This is no surprise to us, because the personnel of the Fire 
Administration have--many of them have backgrounds in the 
emergency services. By the way, I've never met a more 
dedicated, hardworking group of staff people.
    In addition, there's a substantial concern within our 
organization that, because ODP's mission only deals with 
terrorism preparedness, and because the agency does not have 
experience working with local departments and jurisdictions, 
this shift could be detrimental to the program. Therefore, we 
also support all efforts to once again have the U.S. Fire 
Administration take the lead in administering this program.
    The House version also includes important volunteer 
nondiscrimination language prohibiting a fire department that 
receives grant funds from discriminating against, or 
prohibiting members from engaging in, volunteer activities in 
another jurisdiction during off-duty hours. This clause, 
similar to the language that was included in the SAFER bill, 
passed in Congress last year, begins to address the growing 
concern we have about an individual's right to volunteer, since 
some cities currently prohibit their firefighters from 
volunteering.
    I'd like to also stress that this clause does not affect 
union organization. It only applies to the jurisdictions 
applying for the grants. We understand--or, I'm sorry--I'd also 
like to take this time to encourage Members of Congress and 
your colleagues in the Senate to support the program in the 
upcoming fiscal year.
    The President's budget came through at $500 million. That's 
a $250 million cut from last year's appropriation by Congress. 
Our anxiety level was further raised when we saw that, while 
the budget called for the grants to continue to be made 
directly to fire departments, and awarded through the 
competitive process, it dictated that preference be given to 
applications that enhanced terrorism preparedness. It also only 
requested funding, as you've said, for certain parts of the 
program. It leaves out funding for fire prevention, education, 
EMS, firefighter wellness and fitness, and station renovation. 
We're not only concerned about the cuts, but also the potential 
shift of the focus to terrorism.
    The House appropriation bill, which has already been 
passed, increases homeland security by $1.6 billion. It cuts 
the FIRE Act to $600 million. The Senate Committee has reported 
the bill out with $700 million, which is a cut of $50 million 
from last year.
    Many of the departments who are receiving the rural--are 
rural departments struggle the most to provide their members 
with adequate protective gear, safety devices, and training to 
protect their communities. The funding problems in America's 
volunteer service are not limited to rural areas. As suburbs 
continue to grow, so does the burden on the local fire and EMS 
departments. Even though many of these departments have the 
essentials, they're unable to gain access to new technologies.
    At no other time in our history have advances been greater 
in equipment to protect firefighters and make their jobs safer. 
Yet because the new technology is so expensive, many volunteer 
and career departments, alike, are forced to forego the 
purchase of new technology.
    In conclusion, Mr. Chairman, the Assistance to Firefighters 
Grant Program is one of the most effective programs in the 
Federal Government because it provides local fire departments 
with the tools they need to respond to any incident they may 
encounter, no matter what the origin. It ensures local support 
through a matching requirement, and allows firefighters 
themselves to play a role in the process. The program also 
provides a direct connection between the Federal Government and 
local fire departments without dollars being lost in 
administrative overhead.
    Mr. Chairman, I want to thank you and your Committee for 
your time today, and also for your strong leadership in 
Congress. And, you, personally, sir, I want to thank for your 
time and attention, and also for your unwavering support.
    I'll answer any questions you may have.
    [The prepared statement of Mr. Monihan follows:]

  Prepared Statement of E. James Monihan, Past Chairman and Delaware 
            State Director, National Volunteer Fire Council
    Mr. Chairman and members of the Committee, my name is E. James 
Monihan and I am the former Chairman of the National Volunteer Fire 
Council (NVFC) and currently serve as the Delaware State Director and 
Chairman of the Legislative Committee. The NVFC represents the 
interests of the Nation's more than 800,000 volunteer firefighters, who 
staff over 90 percent of America's fire departments. I currently serve 
as a volunteer firefighter with the Lewes Fire Department in Lewes, 
Delaware. I have served as a firefighter for 44 years and still respond 
regularly to calls. I have had experience in all phases of the life of 
a first responder, including chemical and hazardous materials 
incidents, EMS, rescue and fire.
    In addition to serving as Chairman of the NVFC's Legislative 
Committee, I have represented the NVFC on a variety of panels and 
committees, including the 1998 Blue Ribbon Panel, which provided 
recommendations on improving the operation of the U.S. Fire 
Administration (USFA). I earn my livelihood in hospital administration, 
which has allowed me to get a unique view of the emergency services 
from both the medical and fire service perspectives.
    According to the National Fire Protection Association (NFPA), 
nearly 75 percent of all firefighters are volunteers. In most years, 
more than half of the firefighters that are killed in the line of duty 
are volunteers. In addition to the obvious contribution that volunteer 
firefighters lend to their communities as the first arriving domestic 
defenders, these brave men and women represent a significant cost 
saving to taxpayers, a savings sometimes estimated to be as much as $37 
billion annually.
    On behalf of our membership, I appreciate the opportunity to 
comment on the needs of America's volunteer fire service. More 
specifically, I would like to express our strong support for S. 2411, 
the Assistance to Firefighters Act of 2004, which will reauthorize the 
Assistance to Firefighters Grant Program, also known as the FIRE Act, 
through Fiscal Year 2010. In addition, this bipartisan legislation will 
make some changes to the program, which will build upon its tremendous 
effectiveness and success.
    The events of September 11, 2001 was a stark reminder to all 
Americans that the fire service is the first responder to all terrorist 
attacks this country may face. As America's domestic first responders, 
the fire service will be on the front lines of any incident and must be 
prepared to respond to and defend our citizens from a terrorist attack 
involving conventional weapons or weapons of mass destruction.
    However, we cannot lose sight of the 21 million calls the fire 
service responds to annually involving structural fire suppression, 
emergency medical response, hazardous materials incidents, clandestine 
drug labs, search and rescue, wildland fire protection and natural 
disasters. Many of these emergencies occur at Federal facilities and 
buildings and on Federal lands. In addition, these incidents can damage 
America's critical infrastructure, including our interstate highways, 
railroads, bridges, tunnels, financial and agriculture centers, power 
plants, refineries, and chemical manufacturing and storage facilities. 
We as a fire service are sworn to protect these critical facilities and 
infrastructure.
    Often, local governments alone are unable to afford the extensive 
training and equipment that these challenges require. The Assistance to 
Firefighters Grant program assists local fire departments by providing 
a percentage of the needed funds to pay for these necessities, while 
not supplanting local responsibility to provide adequate fire and 
emergency medical services.
    The Assistance to Firefighters Grant program (AFGP) has proven to 
be the most effective program to date in providing all fire 
departments--both large and small, volunteer, career and combination--
not only with the tools they need to perform their day-to-day duties, 
but it has also enhanced their ability to respond to large disasters as 
well. As we move to prepare for terrorist incidents at home, we must 
first ensure that local fire departments have the basic tools they need 
to do their jobs on a daily basis.
    This legislation will address these concerns by continuing to 
ensure that the program will meet the basic firefighting and emergency 
response needs of our fire departments, rather than becoming an 
additional anti-terrorism grant program. The Federal government must 
not forgo its commitment to the basic needs of America's fire service 
in the name of Homeland Security.
    The program has been successful because it is the only Federal 
program that provides funding directly to fire departments. In 
addition, the program's success is directly attributed to the fact that 
members of the fire service have been involved in nearly every aspect 
of the program to ensure that it addresses our current needs. We have 
helped to set the criteria for each funding category, and have staffed 
panels to grade the applications through an excellent peer-review 
process.
Program Reauthorization
    As I stated earlier, passage of S. 2411, the Assistance to 
Firefighters Act of 2004, is a top priority for our organization. The 
bill authorizes $900 million for Fiscal Year 2005, $950 million in 
Fiscal Year 2006, and $1 billion annually in Fiscal Years 2007 through 
2010 for the grant program, for a total six-year authorization of $5.85 
billion.
    As written, the bill codifies many of the current program 
regulations that have made it so successful. The legislation would 
mandate the current peer-review process, guarantee national fire 
service organizations are represented in setting the criteria, and 
ensure that the program continues to address basic fire department 
needs.
    In addition, it improves access to the program for departments 
serving rural communities, and eliminates barriers to participation 
faced by departments serving heavily populated jurisdictions. 
Specifically, the bill would:

  <bullet> Reduce the current local fire department matching 
        requirements from 30 percent to 20 percent for departments 
        serving communities of 50,000 or more. For departments serving 
        20,000 or fewer residents, the local match is reduced from 10 
        percent to 5 percent in order to address extreme budgetary 
        difficulties and encourage increased participation by such 
        departments.

  <bullet> The current FIRE Act caps grant amounts at $750,000, 
        regardless of the size of the fire department. The 
        reauthorization bill re-structures these caps so that they 
        better reflect the needs and the size of the department. The 
        bill has a ceiling of $2,250,000 for departments serving one 
        million or more, $1,500,000 for departments serving between 
        500,000 and one million, and $1,000,000 for departments serving 
        fewer than 500,000 residents.

    While we feel that the cap increases will clearly result in a shift 
of funds from smaller departments to larger ones, the NVFC supports 
these changes and we believe that these figures will help target the 
areas most in need while still ensuring that the program makes a wide 
impact across the country.
    The legislation also opens the program up to volunteer, non-profit 
emergency medical service (EMS) providers. Although many jurisdictions 
maintain separate fire and EMS departments, under current law, only 
emergency medical services that are part of fire departments are 
eligible for funding. To ensure that these agencies do not siphon off 
too much funding, the legislation caps the amount these entities may 
collectively receive to 3.5 percent of appropriated funds. The bill 
also creates an incentive for fire departments to acquire automated 
external defibrillator (AEDs) for every first-due emergency vehicle. 
The NVFC has been a long-time advocate for wide proliferation of AEDs 
within the fire service and this bill will help further our efforts.
    Finally, the legislation commissions a comprehensive assessment by 
the National Fire Protection Association to help identify the areas of 
greatest need among departments nationwide and requires the Government 
Accounting Office to report to Congress regarding the effectiveness of 
the program.
    I would also like to address certain provisions, which we support, 
that were included in the House version (H.R. 4107) of this 
legislation, but were omitted from this bill.
    In an effort to consolidate first responder grant programs, the 
AFGP was transferred to the Office for Domestic Preparedness (ODP) in 
FY 2004. However, the U.S Fire Administration (USFA), under the 
leadership of Chief R. David Paulison, has spent the last four years 
developing and refining the program and has clearly demonstrated the 
capability to efficiently distribute these funds to local fire 
departments. This is no surprise to us because the personnel at USFA 
know the fire service like no other agency and many of their personnel 
have emergency services backgrounds themselves.
    In addition, there is a substantial concern within our organization 
that because ODP's mission only deals with terrorism preparedness and 
because the agency does not have experience working with local fire 
departments or local jurisdictions, this shift could be detrimental to 
the program. Therefore, we support all efforts to once again have USFA 
administer the program.
    The House version also includes important volunteer non-
discrimination language prohibiting a fire department that receives 
grant funds from discriminating against, or prohibiting its members 
from engaging in volunteer activities in another jurisdiction during 
off-duty hours. This clause, similar to the language that was included 
in the SAFER Bill passed in Congress last year, begins to address the 
growing concern we have about an individual's right to volunteer. 
Cities such as Hartford, West Hartford, East Hartford, Waterbury, 
Fairfield, New Britain, Connecticut, West Allis, Wisconsin and Ft. 
Wayne, Indiana currently prohibit their firefighters from volunteering.
    We feel that these types of provisions are a violation of the basic 
First Amendment right of free association. It is very alarming that any 
city would try to a tell a firefighter how they should or should not 
spend their off-duty time, especially when they are spending that time 
doing good in their community. This comes at the same time there is a 
revived push for volunteerism across our country led by President Bush.
    Moreover, many career firefighters who work in larger cities often 
live in smaller communities and belong to their local volunteer fire 
departments at their choice. These individuals should be able to 
provide their invaluable skills, knowledge and expertise to their local 
departments, which are responsible for protecting their own homes and 
family, without harassment and retribution from employers.
    Some proponents of this type of prohibition contend that it is a 
health and safety issue and that firefighters must be given time off to 
recoup and relax. However, we have not heard anything about fire 
departments that bar their firefighters from strenuous and equally 
hazardous second jobs in construction and other trades. In addition, 
there appears to be no fire departments that prohibit their 
firefighters from partaking in potentially dangerous hobbies like 
skiing or skydiving. Volunteer fire and EMS are the only activities 
that appear to be singled out.
    I would like to also stress that this clause does not affect any 
local unions who may attempt to prevent their members from 
volunteering. It simply would give incentives to municipalities to 
allow their employees to volunteer in their hometown fire departments.
    We understand that S. 2411, the Assistance to Firefighters Act of 
2004, has been attached as an amendment to the Senate version of the 
National Defense Authorization Act for Fiscal Year 2005 (S. 2400). We 
look forward to quickly passing this bill and working in Conference to 
craft final legislation that will benefit the entire fire service in 
its efforts to protect our Nation and its citizens.
FY 2005 Appropriations
    I would also like to take this time to encourage members of the 
Committee and your colleagues in the Senate to support the program in 
the upcoming Fiscal Year. On February 2nd of this year, President Bush 
sent Congress his FY 2005 budget, which requested only $500 million for 
the Assistance to Firefighters Grant Program. Although this was the 
same amount the Administration requested in the FY 2004 budget, it 
represented a cut of $250 million (33 percent) from the final amount 
that was appropriated by Congress.
    While the budget called for the grants to continue to be made 
directly to fire departments and awarded through a competitive, peer-
review process, priority was to be given to applications that enhance 
terrorism preparedness. It also only requests funding for the training, 
apparatus and equipment sections of the FIRE Act, leaving out funding 
initiatives for fire prevention and education, EMS, firefighter 
wellness/fitness and station renovation.
    The NVFC is not only concerned about the proposed cut from FY 2004 
funding levels, but we are also worried about the potential shift in 
focus of the program exclusively to terrorism. This program, which was 
created before September 11, 2001, maintains its objective to bring 
every fire department up to a base-line level of readiness, which in 
turn will prepare them for large-scale incidents. This budget request 
only strengthens our argument that Congress needs to take action to 
ensure the program is protected. Quick passage of the reauthorization 
bill will once again reiterate to the Administration that the 
Assistance to Firefighters grant program is intended to address basic 
fire service needs and enhance the capability to respond to all 
hazards.
    On June 18, the U.S. House of Representatives passed their FY 2005 
House Homeland Security Appropriations Bill (H.R. 4567). While 
providing a $1.6 billion (5.3 percent) overall increase for the 
Department of Homeland Security (DHS), the bill reduces Assistance to 
Firefighters Grant program funding to $600 million for FY 2005, down 
from nearly $750 million.
    The Senate version of the Homeland Security Appropriations Bill (S. 
2537) passed out of the Senate Appropriations Committee on June 17. The 
Senate bill funds the Assistance to Firefighters Grant program at $700 
million for FY 2005, $100 million more than the House but still a cut 
over FY 2004 levels.
    Considering that nearly $3 billion in applications were submitted 
for the current program year and while also taking into account a 
variety of recent reports outlining the tremendous needs of America's 
emergency services, including the NFPA Needs Assessment Survey, the 
NVFC requests that Congress work to fund the program at or near the 
fully authorized amount of $900 million.
A History of Success
    After this current grant cycle (FY 2004), the Assistance to 
Firefighters Grant program will have distributed nearly $2 billion to 
almost 16,000 fire departments across the country for apparatus, 
personal protective equipment, hazmat detection devices, improved 
breathing apparatus, wellness and fitness programs, fire prevention and 
education programs and interoperable communication systems. This is the 
basic equipment our fire departments need to effectively respond to all 
hazards.
    In FY 2003, the program received $750 million and awarded nearly 
8,700 grants to fire departments. There are no discrepancies as to the 
location of this funding. It is all in the hands of local fire 
departments. The Federal government is not blaming the state 
government. The state government is not blaming the county and local 
governments. The program simply works.
    Many of these departments who are receiving aid are rural volunteer 
fire departments that struggle the most to provide their members with 
adequate protective gear, safety devices and training to protect their 
communities. In these difficult times, while volunteer fire departments 
are already struggling to handle their own needs and finances, they are 
now forced to provide more services.
    The funding problems in America's volunteer fire service are not 
just limited to rural areas. As suburbs continue to grow, so does the 
burden on the local fire and EMS department. Even though many of these 
departments have the essentials, they are unable to gain access to new 
technologies. At no other time have advances been greater in equipment 
to protect them and make their jobs safer. Yet because the newer 
technology is so expensive, many volunteer and career fire departments 
are forced to forgo the purchase of the new technology or use outdated 
equipment.
Conclusion
    The Assistance to Firefighters Grant program is one of the most 
effective programs in the Federal government because it provides local 
fire departments with the tools they need to respond to any incident 
they may encounter, no matter what the origin of the emergency. It 
ensures local support through a matching requirement and allows 
firefighters themselves to play a large role in the process.
    I would like to take this opportunity to thank you Chairman McCain, 
Ranking Member Hollings, Senators Dodd and DeWine and all of the fire 
service's supporters in the U.S. Senate for their strong leadership on 
this issue as well as other issues important to the fire service.
    Mr. Chairman, I thank you for your time and your attention to the 
views of America's fire service, and I would be happy to answer any 
questions you may have.
                        E. James Monihan, FACHE
Professional
  <bullet> Graduated from Philadelphia College of Pharmacy and Science 
        in Philadelphia

      Degree: Bachelor of Science in Pharmacy
      Post-graduate studies in Pharmacy at Philadelphia College of 
            Pharmacy and Science
      Registered Pharmacist--State of Delaware

  <bullet> Residency in Hospital Pharmacy--Memorial Hospital, 
        Wilmington, Delaware

  <bullet> Staff Pharmacist--Memorial Hospital, Wilmington, Delaware

  <bullet> Director of Pharmacy and Supply Services
      Beebe Hospital, Lewes, Delaware
      Emily P. Bissell Hospital, Wilmington, Delaware

  <bullet> Assistant Administrator/Vice President, Operations
      Beebe Hospital Beebe Medical Center

  <bullet> Acting Administrator/Interim President
      Beebe Medical Center, Lewes

  <bullet> Vice President, Professional Affairs & Quality Commitment
      Beebe Medical Center, Lewes

  <bullet> Currently Vice President, Administration/CCO (Chief 
        Compliance Officer)
      Beebe Medical Center, Lewes

  <bullet> Fellow and Past Regent for Delaware--American College of 
        Healthcare Executives

  <bullet> Member and Past Delegate to the House of Delegates--American 
        Society of Hospital Pharmacists.

  <bullet> Founding Secretary, Vice President and President
      Delmarva Council of Hospital Executives
Fire Service
  <bullet> President and Deputy Chief--Lewes Fire Department

  <bullet> President Sussex County Volunteer Firemen's Association

  <bullet> President, Delaware Volunteer Firemen's Association

  <bullet> Chairman, National Volunteer Fire Council (12 years)

  <bullet> Chairman, Joint Council of National Fire Service 
        Organizations

  <bullet> United States Director, Federation of World Volunteer 
        Firefighters Association

  <bullet> Currently Delaware Director, National Volunteer Fire Council 
        and Chairman, Legislative Committee
Associations
  <bullet> Represent Delaware Healthcare Association (appointed by 
        Governor)
      Delaware Emergency Medical Services Advisory Council (DEMSAC)
      Delaware Paramedic Advisory Council

  <bullet> Founding Chairman, Association of Delaware Hospital
      Committed Group Purchasing Program (10 years)

  <bullet> Chairman, City of Lewes (Delaware) Project Impact Hazard 
        Mitigation Steering Committee
Publications
    ``Improved Productivity through Cooperative Planning,'' Published 
in the International City Management Association's publication, Fire 
Management.
Awards
  <bullet> ``Board of Hygeia,'' 1975, Delaware Pharmaceutical 
        Association for Community Service

  <bullet> American Red Cross Service Award

  <bullet> Personality of the Year, 1994, The Coast Press

  <bullet> Regent's Award, 1998, American College of Healthcare 
        Executives

  <bullet> First Annual Mason Lankford Award for Fire Service 
        Leadership from the Congressional Fire Services Institute, 
        April 1999.

    The Chairman. Thank you very much, Mr. Monihan.
    Welcome, my former colleague in the House, Mr. Shannon.

       STATEMENT OF JAMES M. SHANNON, PRESIDENT AND CEO, 
          NATIONAL FIRE PROTECTION ASSOCIATION (NFPA)

    Mr. Shannon. Thank you, Mr. Chairman. Thank you for 
inviting me to appear before this Committee today. My name is 
Jim Shannon, and I'm President and Chief Executive Officer of 
the National Fire Protection Association.
    NFPA is a nonprofit organization founded more than a 
hundred years ago with a mission to save lives through 
consensus codes and standards, fire and life safety education 
and training, and fire research and analysis. NFPA consensus 
codes and standards were adopted by state and local 
jurisdictions throughout the United States and widely used by 
the Federal Government. Just a few months ago, the Department 
of Homeland Security adopted five of our standards for personal 
protective equipment for use in the Fiscal Year 2005 State and 
Urban Area Security Grant Programs. And this past May, 
Secretary Ridge, in testimony before the 9/11 Commission, cited 
NFPA's national preparedness standard, NFPA 1600, as the 
foundation that the private sector can use to improve 
readiness, and we hope and expect that that will be a 
recommendation of the 9/11 Commission when that report is 
released.
    Now, as you consider the reauthorization of the Assistance 
to Firefighters Grant Program, the FIRE Grant Program, I want 
to testify in support of S. 2411. This legislation ensures that 
the work the United States Fire Administration has done in 
administering this crucial grant program to best meet the 
critical fire protection needs of the Nation will continue.
    Now, first, let me state emphatically that the 
reauthorization of the FIRE Grant Program is extremely 
important to the effectiveness of the fire service throughout 
the United States. This program addresses every element of the 
fire service, including fire suppression, prevention, code 
enforcement, and emergency medical response. And while it's not 
specifically a terrorism program, the FIRE Grant Program 
provides the foundation on which terrorism preparedness must be 
built. These basic levels of preparedness, which we know so 
many departments lack, must be adequately met.
    In 1973, the National Commission on Fire Prevention and 
Control transmitted to President Nixon its final report, 
``America Burning.'' And in that report, the Commission 
recommended establishment of the Fire Administration to, among 
many other functions, provide grants to state and local 
governments. Before Congress created the FIRE Grant Program, 
USFA was unable to perform that key function with the scale and 
breadth needed to help America's fire service achieve full 
effectiveness in its role of protecting the public. And now, 
with this continuing support of Congress and with diligent 
administration by USFA, the program is addressing the needs of 
the fire service and promoting public safety. And I think that 
staff at the USFA has done a tremendous job in administering 
this program.
    The program, since Fiscal Year 2001, has provided more than 
a billion dollars in financial resources directly to fire 
departments. Fire departments, however, have applied for more 
than seven billion. And, as I shall discuss, the real needs of 
the fire service are even greater. It is crucial that the FIRE 
Grant Program be maintained as a separate and distinct funding 
source where fire departments can receive direct funding from 
the Federal Government and avoid unnecessary red tape. And I 
would also urge the Congress to fund the program at a level no 
less than its authorized amount of $900 million.
    Now, when I said that the needs are much greater than the 
currently authorized and appropriated amounts for the FIRE 
Grant Program, I was speaking about the needs-assessment survey 
of the fire service which was commissioned by Congress as part 
of the FIRE Act, and published by NFPA in cooperation with FEMA 
and the Fire Administration in 2002. This survey, Mr. Chairman, 
preceded--or at least the authorization for the survey preceded 
the events of 9/11/2001. But I think it sheds considerable 
light on the deficiencies post-9/11, and the work was done 
post-9/11. The NFPA needs assessment shows deficiencies in 
almost every role that the fire service plays, and across all 
community sizes.
    Later this summer, NFPA will release a needs assessment for 
each of the 50 states based on further analysis of the data 
collected from the National Fire Service Needs Assessment, and 
we fully expect these reports to demonstrate that fire 
departments in every part of the Nation share in the national 
needs and require the help that this grant program has been 
providing. And, as I said, that needs assessment began before 
September 11, but because of the foresight of the Fire 
Administration and the people who worked on the assessment, the 
survey includes extensive attention to terrorism preparedness.
    Mr. Chairman, this legislation takes the next appropriate 
step, and that is to provide the resources to update the 
original needs assessment. Now that the FIRE Grant Program is 
in its fourth year, it is important to have the empirical data 
to show how this program is addressing the needs documented in 
the original assessment. This updated study will measure the 
impact of the FIRE Grant Program on the shortfalls identified 
by NFPA's original assessment.
    And S. 2411 continues the fire prevention and education 
portion of the FIRE Grant Program. Although it's only 5 percent 
of the total funding, fire prevention and education activities 
conducted by our fire departments, our educators, and other 
community leaders address a pressing need. These programs often 
reach out to high-risk groups who disproportionately die in 
fires--children, older adults, and the disadvantaged.
    And just a couple of statistics about these groups. 
Children five and younger and adults 65 and older have a death 
rate from fire and burns that is roughly twice the rate of the 
population as a whole. And these two groups account for over 40 
percent of all civilian fatalities. And fire risk is highest in 
rural areas and large urban areas, the same communities where 
poverty and other high-risk conditions are most widespread.
    Fire protection has always been, and I think always will 
be, primarily a local responsibility. And the FIRE Grant 
Program doesn't change this. However, our firefighters, who are 
nearly always the first responders in any crisis, need more 
help. And when we're telling the Nation's fire departments to 
prepare and be ready for attacks on our homeland, whether 
initiated from abroad or domestically, we can't expect them to 
pay for sophisticated equipment and training by relying solely 
on local taxes and fundraisers. There are those that have 
called for the establishment of national preparedness standards 
for our first responders. Surely, meeting the basic needs of 
our fire departments is one standard we can't afford to leave 
unfulfilled. The Federal Government must continue to provide 
adequate resources through this program and to support our 
firefighters to meet the many challenges they face every day. 
This legislation will help to ensure that the program does 
that.
    I want to thank you, Mr. Chairman.
    If I could just make one comment on something that you said 
earlier, I just want to say that NFPA fully supports trying to 
ally the resources that are available for our first responder 
community, generally, to the threat that we have to face. I am 
deeply concerned that we haven't done nearly enough to address 
this serious threat. You talk to a lot more people who assess 
these threats than I do, but they all come to the same 
conclusion, and I'm deeply concerned that we haven't adequately 
addressed these questions.
    I want to say that I understand the budget concerns 
completely. I think that we should target the resources where 
we think the threat is greatest. But I also think we have to 
keep in the back of our minds two things. One is that the needs 
assessment shows that the needs are everywhere in this country, 
and, at some point, they have to be addressed. And the second, 
I would remind you, Mr. Chairman--and I know I don't have to 
remind you--is that on September 11, 2001, one of the fire 
departments that was asked to respond to that terrorist threat 
on that horrible day was the volunteer fire departments in 
Shanksville, Pennsylvania, that had to address one of the plane 
crashes. And so that when we look at this whole question of how 
we're going to allocate these resources, we have to keep that 
in mind, as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Shannon follows:]

      Prepared Statement of James M. Shannon, President and CEO, 
              National Fire Protection Association (NFPA)
    Chairman McCain, Ranking Member Hollings and members of the 
Committee, I am honored to appear before this Committee today. My name 
is James M. Shannon, and I am President and Chief Executive Officer of 
the National Fire Protection Association (NFPA). NFPA is a non-profit 
organization; founded more than 100 years ago, with a mission to save 
lives through scientifically based consensus codes and standards, fire 
and life safety education and training, and fire research and analysis. 
NFPA consensus codes and standards are adopted by state and local 
jurisdictions throughout the United States and widely used by the 
Federal government.
    Today NFPA has nearly 300 codes and standards addressing safety, 
each accredited by the American National Standard Institute (ANSI) and 
developed by technical experts, the fire service, and others 
participating as volunteers in a consensus process. This process 
ensures that all interested parties have a say in developing standards. 
Congress affirmed its support for voluntary consensus standards in the 
National Technology Transfer and Advancement Act of 1995 (P.L. 104-113) 
and reaffirmed that support in the Homeland Security Act of 2002, the 
law that created the new department. Just a few months ago, the 
Department of Homeland Security adopted five of our standards for 
personal protection equipment for use in the FY 2005 state and urban 
area security grant programs, and this past May Secretary Ridge in 
testimony before the 9/11 Commission cited NFPA's national preparedness 
standard (NFPA 1600) as the foundation that the private sector can use 
to improve readiness.
    As Congress considers the reauthorization of the Assistance to 
Firefighters Grant Program, known at the FIRE Grant Program, I wish to 
testify in support of S. 2411, the ``Assistance to Firefighters Act of 
2004.'' This legislation ensures that the work the United States Fire 
Administration (USFA) has done in administering this crucial grant 
program to best meet the critical fire protection needs of the Nation 
will continue.
    First, let me state emphatically that the reauthorization of FIRE 
Grant Program is extremely important to the effectiveness of the fire 
service throughout the United States. This program addresses every 
element of the fire service including fire suppression, prevention, 
code enforcement, and emergency medical response. While it is not 
specifically a terrorism program, the FIRE Grant program provides the 
foundation on which terrorism preparedness must be built. These basic 
levels of preparedness, which we know so many departments lack, must be 
adequately met.
    In 1973, the National Commission on Fire Prevention and Control, 
transmitted to President Nixon its final report ``America Burning.'' In 
that report the Commission recommended establishment of the United 
States Fire Administration to, among many other functions, provide 
grants to state and local governments. Before Congress created the FIRE 
Grant Program, USFA was unable to perform that key function with the 
scale and breadth needed to help America's fire service achieve full 
effectiveness in its role of protecting the public. Now, with the 
continuing support of Congress, and with diligent administration by 
USFA, this program is addressing the needs of the fire service and 
promoting public safety.
    The staff at USFA has done a tremendous job in administering the 
FIRE Grant Program. Since its creation in FY 2001, this program has 
provided more than $1 billion in financial resources directly to fire 
departments. Fire departments, however, have applied for more than $7 
billion, and, as I shall discuss, the real needs are even greater. It 
is crucial that the FIRE Grant Program be maintained as a separate and 
distinct funding source where fire departments can receive direct 
funding from the Federal government and avoid unnecessary red tape. I 
would also urge the Congress to fund the program at a level no less 
than its authorized amount of $900 million dollars.
    When I said the needs are much greater than the currently 
authorized and appropriated amounts for the FIRE Grant program, I was 
speaking on the basis of the ``Needs Assessment Survey'' of the fire 
service, which was commissioned by Congress as part of the FIRE Act and 
published by NFPA in cooperation with FEMA/USFA in 2002. Let me share 
with you a few of the major findings from that survey.

  <bullet> Only one in every 10 fire departments has the local 
        personnel and equipment required to respond effectively to a 
        building collapse or the release of chemical or biological 
        agents with even minimal to moderate casualties;

  <bullet> 50 percent of our firefighters involved in ``technical 
        rescue'' lack formal training, but technical rescue involving 
        unique or complex conditions is precisely the skill they would 
        need to respond to a terrorist attack;

  <bullet> There are other huge gaps in training--there has been no 
        formal training for 21 percent of those involved in structural 
        firefighting; for 27 percent of those involved in EMS work; and 
        for 40 percent who are sent in to deal with hazardous 
        materials;

  <bullet> And we don't protect our firefighters as we should. One 
        third of the protective clothing worn by firefighters sent into 
        a burning building is more than 10 years old, and an estimated 
        57,000 firefighters lack any protective clothing at all;

  <bullet> On a typical fire department shift, 45 percent of first 
        responding firefighters lack portable radios; 36 percent lack 
        self-contained breathing apparatus; and 42 percent answer an 
        emergency call without a Personal Alert Safety System (PASS) 
        device that is critical in locating an injured or trapped 
        firefighter;

  <bullet> Finally, at least 65 percent of cities and towns nationwide 
        don't have enough fire stations to achieve widely recognized 
        response-time guidelines. Those guidelines recommend that 
        firefighters be on the scene of any situation within 4 minutes, 
        90 percent of the time.

    There are those that have called for the establishment of national 
preparedness standards for our first responders; surely meeting the 
basic needs of our fire departments is one standard we can't afford to 
leave unfulfilled.
    Later this summer, NFPA will release a needs assessment for each of 
the 50 states, based on further analysis of the data collected for the 
national fire service needs assessment. We fully expect these reports 
to demonstrate that fire departments in every part of the Nation share 
in the national needs and require the help this grant program has been 
providing.
    The Needs Assessment began before the horrific events of September 
11, 2001, but because of the foresight of USFA and our fire service 
advisors, the survey included extensive attention to terrorism 
preparedness. When the Council on Foreign Relations began an exercise, 
under former Senator Warren Rudman, to develop cost estimates of 
terrorism preparedness for the entire first responder community at all 
levels of government, the Needs Assessment permitted NFPA to develop 
and substantiate the fire service portion of these cost estimates with 
unusual detail.
    In its report released last year, the Council estimated that it 
would take $98.4 billion in additional funds above current spending 
(estimated at $26-76 billion) over the next 5 years, or $19.7 billion 
per year, to meet the needs of our first responders to handle the 
additional responsibilities of homeland security. The fire service 
portion of this, based on the Council's use of NFPA's analysis of the 
Needs Assessment Survey, was $26.5 billion in initial costs and $7.1 
billion per year in ongoing costs.
    Chairman McCain, this legislation takes the next, appropriate step, 
and that is to provide the resources to update the original needs 
assessment. Now that the FIRE Grant Program is in its fourth year, it 
is important to have the empirical data to show how this program is 
addressing the needs documented in the original assessment. This 
updated study will measure the impact of the FIRE Grant program on the 
shortfalls identified by NFPA's original assessment.
    S. 2411 continues the fire prevention and education portion of the 
FIRE Grant program. Although, it is only five percent of the total 
funding, fire prevention and education activities conducted by our fire 
departments, educators, and other community leaders address a pressing 
need. These programs often reach out to high-risk groups who 
disproportionably die in fires: children, older adults and the 
disadvantaged. Some disturbing statistics about these groups:

  <bullet> Children five and younger and adults sixty-five and older 
        have a death rate from fire and burns that is roughly twice the 
        rate of the population as a whole

  <bullet> These two groups account for over 40 percent of all civilian 
        fatalities

  <bullet> Fire risk is highest in rural areas and large urban areas-
        the same communities where poverty and other high-risk 
        conditions are most widespread

    Fire protection has always been and always will be primarily a 
local responsibility. The FIRE Grant program does not change this. 
However, our firefighters, who are nearly always the first responders 
in any crisis, need more help. When we're telling the Nation's fire 
departments to prepare and be ready for attacks on our homeland, 
whether initiated from abroad or domestically, we can't expect them to 
pay for sophisticated equipment and training by relying solely on local 
taxes and fundraisers.
    The Federal Government must continue to provide adequate resources 
through the Assistance to Firefighters Grant Program and to support our 
firefighters to meet the many challenges they face every day. This 
legislation will help to ensure that this program does just that. Thank 
you again for the opportunity to testify here today. I am happy to 
answer any questions you have.

    The Chairman. Thank you very much.
    Welcome, Mr. Shields.

             STATEMENT OF BILLY SHIELDS, PRESIDENT,

 UNITED PHOENIX FIRE FIGHTERS AND VICE PRESIDENT, PROFESSIONAL 
                    FIRE FIGHTERS OF ARIZONA

    Mr. Shields. Thank you, Mr. Chairman.
    My name's Billy Shields. I serve as President of the United 
Phoenix Fire Fighters, Local 493 of the International 
Association of Fire Fighters. I appear before you today on 
behalf of General President Harold Schaitberger and the 263,000 
men and women of the IAFF. The IAFF is, by far, the largest 
fire service organization in the nation, and our members 
protect over 80 percent of the United States population.
    I will, with your permission, depart from my oral comments 
at junctures to try and address some of the specific questions 
and issues you've raised today from the participants.
    And I do appreciate this opportunity to share our views on 
reauthorizing the Assistance to Firefighters Grant Program, 
more commonly known as the FIRE Act.
    Before beginning, Mr. Chairman, I must take a moment to 
comment you and your staff on your long history of championing 
fire-service issues. We are especially appreciative of your 
leadership on improving fire-technology standards and better 
coordination among fire departments. Your authorship of the 
Firefighting Research and Coordination Act has not gone 
unnoticed within the IAFF, and it goes hand in hand with the 
FIRE Act, in terms of bringing the best-quality equipment to 
local fire departments and helping to achieve a coordinated 
response.
    In Arizona, we have worked feverishly since October of 2001 
to try and build a response capability to these incidents; and 
not just terrorist incidents, but major catastrophic incidents 
that we face, as first responders. Anticipating the arrival of 
UASE monies and these sorts of things, we have put together a 
statewide response plan I have shared and briefed your staff 
with last March, and I know you're aware of, that is 
essentially a system of heavy rescue units with cross-trained 
firefighters in hazardous materials expertise, technical-rescue 
expertise, as well as the standard firefighter, EMS, and 
paramedic training. We see this as a way that all of these 
things come together. The FIRE Act assists the fire departments 
around the country in developing a basic level of response 
based on what they locally have identified as their needs, and 
whether that be Bisbee or Nogales or Lake Havasu or Phoenix.
    These UASE moneys, I think, help to determine and develop a 
larger response to these threats, and there are issues with how 
departments design and develop an approach to these. In the 
case of Phoenix, as the central receiving point of the UASE 
moneys, we have shared them with the Metro Phoenix area, and 
purchased--with the 2003 monies we just received, we've ordered 
five heavy-rescue units; three to go in Phoenix, one to go in 
Tempe, one to go in Glendale. In the 2004 moneys, we would 
provide an additional five that get placed around in Tucson, 
Flagstaff, and Nogales and Mesa. In the coordination of this--
and I think back to the Act that you authored--it assumes some 
mutual cooperation and basic standards and mutual aid. And the 
Governor in Arizona did sign a mutual-aid agreement statewide 
between all the fire departments.
    But these things come together in a very complex way, and 
I'd like to just say that I'm proud of the way, in Arizona, we 
have worked together with all of the organized fire-service 
agencies, including the volunteers, the fire districts, the 
fire chiefs--both rural and metro fire chiefs--and the fire 
unions, to create this strategic approach to try and meet these 
needs.
    Today, I'm here to testify specifically on S. 2411 and the 
reauthorization of the FIRE Act. As I appeared before you 
before, 4 years ago, to testify about the challenges faced by 
the fire service and the millions of calls to help the fellow 
Americans, today I can testify that, Arizona and nationwide, 
the FIRE Act has provided direly needed funds for equipment and 
training to local fire departments. It has been a model of 
efficiency. And by sending funds directly to local fire 
departments using a peer-review process, the FIRE Act has 
distributed over a billion dollars. More than 15,000 grants 
have been awarded.
    There is a distinct difference in the effectiveness of the 
FIRE Act and, I believe, the way that the statewide homeland 
defense and security monies are distributed. The larger monies 
that come down to states, as you know, the state can first take 
20 percent from the top, and then distribute the balance, 
typically through counties. The counties then have an 
extraordinary say. This becomes, as you might guess, a very 
politicized process.
    And to develop the intensive statewide coordinated response 
system I described to you, it is very difficult to navigate 
this process of the state and of the counties and of all of the 
entities. And then you have fire and police response--police 
more concerned with protection and preparedness and 
identification prior to; fire clearly identifying with response 
afterwards. And so there is this melee in and about these 
moneys. And I think, in Arizona, we are far ahead of the curve 
on trying to get a handle and prepare ourselves, in a way that 
we weren't before September 11. I think, in many other states, 
they are caught in this, sort of, quagmire and, sort of, old 
parochial fighting based on the percentages and how these 
monies should be doled out, honestly, politically.
    Arizona, alone, in the FIRE Act, has received over $12.5 
million in grants. In the last fiscal year, our departments 
received $7.6 million. And all over the state--there are over 
60 fire departments--Ak-Chin Fire Department, Alpine Valley, 
Apache Junction, Avondale, Beaver Dam-Littlefield Fire 
District, the Beaver Valley Fire District, Benson Volunteer 
Fire Department, Bisbee--the list goes on and on. And in each 
one of these cases, the specific fire department has identified 
their specific need, and these monies have gone, I think, to 
the greater good.
    Nevertheless, there are still large needs and areas that 
can be improved. Since 2000, the population in Arizona has 
increased by over 9 percent. During the same period, the income 
to the state's general fund has fallen by slightly more than 13 
percent. This results in a greater demand on our fire 
departments, and our firefighters are protecting more people 
with fewer resources. Also, I think, it explains why you see 
larger cities not applying for these FIRE Act grants based on 
the 30 percent match.
    One of the issues that isn't addressed in either form of 
the bill--the House or the Senate--is the timing of the grants. 
The grants are--they are rated in May and distributed 
thereafter. The budgeting process of local governments 
typically runs in a fiscal-year process, and so they start 
their budgeting process in January. And so for a fire 
department of a large city, like Phoenix, to ask for a--even 
under the new formula, a 20 percent match of a--let's say, a 
$750,000 grant in a budgeting process that is concluded, 
typically, by May, and saying that, ``We would like to have 
this money in case we get this grant,'' typically doesn't fall 
well on the ears of the people making the budgeting decisions 
who have, in all cases--the five cities I directly represent--
cut the fire departments' budgets in the last--each of the last 
2 years.
    Many departments in Arizona are still plagued with problems 
of the more than 60 professional departments, appear to be 
deficient in an essential area, such as a minimum-staffing 
levels, apparatus, equipment maintenance, and training provided 
to new-hires. New problems continue to present themselves. The 
transportation of thousands of tons of hazardous materials 
every day through ports of entry in Nogales, San Luis, and 
Douglas, the major forest fires driven by the extreme drought 
and the bark beetles, the emerging public-health issues, such 
as West Nile virus and anthrax scares, are just a few examples.
    Mr. Chairman, let me discuss how these grants have helped 
these two cities in Arizona. And I won't dwell on it long. But, 
in Bisbee, I did mention, 4 years ago they were wearing 10-
year-old protective clothing, and they did receive a $40,000 
FIRE Act grant, and today have new turnouts and gloves and 
rescue ropes and all the things that it takes to do their job. 
Additionally, Bisbee received $138,000 grant that actually 
helped them purchase a piece of fire apparatus that was sorely 
needed in that community.
    Nogales had the issue of this burgeoning population. During 
business hours and holidays, the town population swells from 
40,000 to a quarter of a million, and they were really being 
taxed, in terms of their EMS capabilities, to provide these 
services. And, many times, people come over for emergency 
treatment and medical treatments. And so they received a 
significant FIRE Act grant that went toward their training and 
equipment toward EMS.
    And while the program has been very beneficial, we believe 
it can be improved. When it was first developed, there was a 
fear that smaller communities and volunteer fire departments 
would not be able to compete with larger municipalities for 
grants. As a result, several provisions were added to the 
legislation to ensure that small jurisdictions received a fair 
share of the funding. The IAFF fully endorsed these provisions 
and worked with the National Volunteer Fire Council to address 
issues of fairness.
    We now know that these initial fears were unwarranted, and 
the protections added to the legislation have had a detrimental 
impact on larger municipalities. The fire departments that are 
composed entirely of professional firefighters protect roughly 
half the U.S. population, yet last year they received only 17 
percent of the funding. In Arizona, 55 percent of all fire 
grants were approved for volunteer fire departments, even 
though they protect only 15 percent of the population.
    And, again, to your question, the nature of this thing is 
that you could have a county entirely protected by small 
volunteer groups in, say, 20 different volunteer groups in fire 
stations, and a county next door with one fire department that 
has 20 fire stations. So the fire department in the county with 
20 fire stations can apply for one grant. The county protected 
by 20 different volunteer organizations can apply for 20 
different grants, which would be $15 million under today's Act, 
and $750,000 for the county with the professional fire 
department. So the changes being recommended in these bills, I 
think are highly called for.
    Fortunately, the number of other national fire-service 
organizations are joining us in suggesting these improvements. 
Many suggested improvements were included in S. 2411, and we 
are pleased to endorse that bill. We support the language in 
the bill lifting the cap of $750,000 per grant and linking it 
to population served. As currently written, the cap 
discriminates against larger departments. We are appreciative 
of the language which increases the cap and creates three 
levels of grants, linked to population, with the largest cities 
eligible for up to $2.25 million. Nevertheless, we would 
support raising the cap even higher. The House bill, for 
example, raises the cap to $3 million.
    Another issue that has hindered participation by larger 
departments, as I said earlier, is the matching request. 
Currently, the larger jurisdictions must pay 30 percent, even 
under the proposed changes. The City of Flagstaff, which I'll 
pull out as an example, has never applied for a FIRE Act grant. 
They are around 60,000 to 70,000 in population, and so they 
meet that 30 percent match requirement just by a hair. Even 
under the proposed changes, they would meet the 20 percent, 
because the, sort of, threshold is 50,000 population. In a 
suffering economy, based largely on the university, government, 
and tourism, they have had severe budget cutbacks in the last 2 
years, and the city manager and the mayor have forbidden them 
from even applying for a FIRE Act grant.
    And so S. 2411 begins to address the match problems by 
reducing the match to 20 percent. And while we thank you and 
applaud this step, we encourage further reduction to create 
parity and to place all departments on a level playing field. I 
guess there is an assumption that small communities have less 
resources and income and revenues than larger cities. And if 
we, you know, sort of, think that through, we can realize that 
it is not always true.
    Another improvement contained in 2411 are provisions that 
will measure the program's effectiveness. And, as the others 
have stated, there are many anecdotal reports on the success of 
this program, but we would wholeheartedly support the 
measurements and studies in this legislation.
    The IAFF also supports the provision which leaves to the 
Secretary of Homeland Security the decision regarding which 
agency should administer the FIRE Act. The USFA did an 
exemplary job of administering--administrating the program 
since its creation, and we believe the procedures developed in 
the USFA should be retained, regardless of which agency has 
authority over the program.
    Mr. Chairman, there is one issue that we feel compelled to 
raise, even though it is not in S. 2411. The House version of 
the legislation contains an unfortunate provision that 
dramatically alters the very essence of this program and which 
has caused us to oppose the House bill, as currently drafted. 
The provision would bar a fire department from receiving FIRE 
Act funding if it contains in its collective bargaining 
agreement a clause prohibiting paid firefighters from serving 
as volunteer firefighters in another jurisdiction. While 
perhaps well-intentioned in this effort to increase the number 
of volunteer firefighters, the actual impact of this proposal 
would be detrimental and far-reaching.
    There are very local and cultural and economic issues 
related to, obviously, any jurisdiction. In some localities, 
the government, the city, the town councils, the managers, 
mayors, fire chiefs, or the unions may determine that they are 
not willing to accept the risk, in terms of disability and 
workers compensation, presumptive cancer laws in some states, 
and heart-and-lung presumption bills, for their firefighters 
going and working, paid or otherwise, in another jurisdiction. 
And we would just submit that that really is a local issue.
    In Arizona, it is not, and has not been, a problem. As I 
say, we work very closely together with all the fire service 
entities. There was a case where this was happening in Arizona. 
We simply asked the fire department to stop doing that, and we 
worked that out, and they did. And, honestly, that is the best 
fix of all, is just to work these things out at a local level.
    In Arizona, like in most of America----
    The Chairman. If I could ask you to summarize, Mr. 
Shields----
    Mr. Shields. OK, I'm sorry. Let me just cut to the chase.
    In summary, let me say that the FIRE Act program is a good 
one, and that it's making a difference in Arizona. I am 
hopeful, Mr. Chairman, that our suggestions for improvement 
will become part of the final bill.
    [The prepared statement of Mr. Shields follows:]

  Prepared Statement of Billy Shields, President, United Phoenix Fire 
   Fighters and Vice President, Professional Fire Fighters of Arizona
    Mr. Chairman. My name is Billy Shields and I serve as President of 
the United Phoenix Fire Fighters, Local 493 and Vice President of the 
Professional Fire Fighters of Arizona, both affiliates of the 
International Association of Fire Fighters.
    I appear before you today on behalf of General President Harold A. 
Schaitberger, and the 263,000 men and women of the IAFF. The IAFF is by 
far the largest fire service organization in the nation, and our 
members protect over 80 percent of the United States population.
    Before beginning my statement, Mr. Chairman, I would be remiss if I 
did not take a moment to commend you and thank you for your long 
history of championing fire service issues. Many of us will never 
forget the invaluable contributions you made to the legislation that 
originally created the FIRE Act. Your support of the SAFER Fire 
Fighters Act was crucial to its passage. And, perhaps most important, 
every fire fighter in this Nation owes you a debt of gratitude for the 
leadership and diligence you displayed in passing the Firefighting 
Research and Coordination Act. I personally believe that ten years from 
now we will look back on that achievement as one of the most 
significant enhancements in public safety our government has ever 
undertaken.
    I appreciate this opportunity to share our views on reauthorizing 
the Assistance to Firefighters Grant program, more commonly known as 
the FIRE Act. The FIRE Act was a true landmark in the history of the 
fire service. Prior to its passage, the Federal Government had never 
fully acknowledged a responsibility to help protect the health and 
safety of its citizens from fires and other emergencies. With this 
initiative, the Federal Government for the first time became a partner 
with localities and with America's fire service.
    Mr. Chairman, four years ago I appeared before you and testified 
about the great challenges our fire fighters face in responding to 
millions of calls for help from our fellow Americans. These calls range 
from fires to hazardous materials incidents to search and rescue 
operations to emergency medical care. In my previous testimony, I 
stated the job of fire fighting was the most dangerous in the world and 
we continue to accept that. I also told you we could not accept that 
our safety was being recklessly and needlessly endangered because too 
many fire departments were unable to provide the most basic training, 
equipment and staffing.
    Today, four years later, I am here to say the FIRE Act has made a 
difference. I can testify that in Arizona and nationwide, the FIRE Act 
has provided direly needed funds for equipment and training to local 
fire departments. It has been a model of efficiency. By sending funds 
directly to the local fire departments using a peer-review process, the 
FIRE Act has distributed over $1 billion in just three years. There 
have been more than 15,000 grants awarded to fire departments across 
the Nation. Arizona alone has received over $12.5 million in grants. In 
the last Fiscal Year, our departments received over $7.6 million. These 
grants have purchased equipment, provided desperately needed training, 
enhanced fire fighter wellness, and educated children and others about 
fire safety. Americans are safer today as a result of this program.
    Nevertheless, there are still large needs and areas that can be 
improved. Just as in 2000, Arizona today remains a state that is 
unique. Its varied demographics and geography make it a microcosm of 
almost every region of our Nation.
    In addition to Phoenix, which is now the fifth largest city in the 
country, Arizona is home to mountain forests with significant wildland/
urban interface dangers and shares hundreds of miles of border with our 
Mexican neighbors.
    The Colorado River which is the single most important source of 
fresh water in the western states, the Palo Verde Nuclear Generating 
Plant with its three reactors, and one of our Nation's greatest 
treasures, the Grand Canyon, all belong in whole or part to our state.
    While we are proud of our state's resources, we are also cognizant, 
as fire fighters, of the response problems as well as the threats to 
the safety of our communities that come hand in hand with these 
important state and national assets. Arizona, like every other state, 
is dotted with cities and towns, farms, highways and railroads.
    As you know, Mr. Chairman, since 2000, the population of Arizona 
has increased by over 9 percent. During the same period, income to the 
State's General Fund has fallen by more than 13 percent. This results 
in a greater demand on our fire departments. We have more people to 
protect with less local resources.
    While the FIRE Act has most definitely made a difference, many of 
our fire departments in Arizona are still plagued by the kind of 
problems they faced at the time of my appearance in front of this 
committee in 2000. Most of our 60 full-time professional departments 
are deficient in one or more essential areas, such as minimum safe 
staffing levels, apparatus and equipment maintenance, and training 
provided to new hires. Our trucks are going out without sufficient 
personnel on them, and without adequate back up support. Most of our 
departments cannot provide new hires with the basic level of training 
identified by the National Fire Protection Association (NFPA) as 
necessary to perform the job of a fire fighter safely and effectively. 
These jurisdictions lack funds for instructors, training equipment and 
training facilities.
    National and local issues such as the transportation of thousands 
of tons of hazardous materials every day through our ports of entry at 
Nogales, San Luis and Douglas, major forests fires driven by extreme 
drought, and emerging public health issues such as the West Nile Virus 
and Anthrax scares continue to be national and local concerns for all 
of us.
    And added to these ongoing threats are the additional 
responsibilities we face in the wake of September 11, 2001. Next to our 
Armed Forces, the greatest impact of 9/11 has been on our public safety 
providers--our police officers and fire fighters.
    Understandably there has been a considerable focus on preventing 
terrorist attacks in Arizona and nationwide. But despite our best 
efforts at prevention whether it is in the field of public health, fire 
prevention or international peace treaties, emergencies will occur. And 
when emergencies occur, a response is required. Fire departments must 
be prepared to respond to the emergency with proper equipment and 
trained staff regardless of the cause.
    Mr. Chairman, I would like to go back for a moment now if I may and 
discuss the impact FIRE Act grants made to two of the Arizona cities 
that I discussed in my testimony before you in 2000.
Bisbee
    Four years ago, I testified that the historic, mountainous copper 
and silver mining town of Bisbee had a fire department with no ladder 
truck and fire fighters wearing ten year old personal protective 
equipment. Today I am pleased to report that Bisbee has used a $130,000 
FIRE grant to help them purchase a piece of fire fighting apparatus. 
This previously unaffordable fire truck will be used to protect one of 
Arizona's most historic cities.
    A second grant for $41,000 was used to upgrade personal protective 
equipment for fire fighters. This grant helps replace the decade old 
coats, helmets, gloves, safety ropes and other critical gear that is 
crucial to fighting fires.
    While these grants are indispensable, the department still has 
major problems due to a century plus old water system, narrow winding 
streets and aging buildings.
    A new opportunity for one of Bisbee's neighbors and a challenge for 
Bisbee's under staffed fire department is the likely re-opening of an 
old mine where newly found ore deposits will likely make it one of the 
most productive copper mines in the world.
    Research for redeveloping the mine is ongoing, yet the Bisbee Fire 
Department cannot afford to train or equip a hazardous materials team 
that will be needed.
Nogales
    As I pointed out in 2000, Nogales is one of the busiest ports of 
entry on the U.S.-Mexican border for the shipment of hazardous 
materials. Millions of tons of dangerous cargo pass through Nogales 
every year. Nogales highlights how the risk to a local community is 
impacted by Federal policy and national issues.
    Thanks to the FIRE Act, Nogales received an Emergency Medical 
Services grant for $82,050. This award has already proven critical for 
equipping the fire department with the necessary emergency needs in 
case of accident.
    While the Nogales Fire Department also obtained some hazardous 
materials training funds from the state of Arizona, their hazmat needs 
are still enormous. Every member of the department was trained to the 
Technician level in Hazardous Materials, yet its effectiveness is 
limited by the fact that the department cannot afford ongoing training 
or the advanced tools, apparatus and protective suits that match the 
hazards which are constantly in their community.
FIRE Act program
    While the FIRE grants program has been successful we believe the 
program can be improved. When the program was first developed, there 
was a fear that smaller communities and volunteer fire departments 
would not be able to compete with large municipalities for grants. As a 
result, several provisions were added to the legislation to ensure that 
small jurisdictions received a fair share of the funding. The IAFF 
fully endorsed these provisions, and worked with other fire service 
organizations to address issues of fairness.
    Based on the experience of the last four years, we now know that 
those initial fears were unwarranted, and the protections added to the 
legislation have had a detrimental impact on larger municipalities. 
Fire departments that are composed entirely of professional fire 
fighters protect roughly half of the U.S. population, yet last year 
they received only 17 percent of the funding. In Arizona, 55 percent of 
all FIRE grants were approved for volunteer departments even though 
they protect only 15 percent of the population.
    Together with the other national fire service organizations, we put 
together a proposal to begin to address some of these inequities. We 
are grateful that a number of those proposals were included in S. 2411, 
the bill authored by Senators Dodd and DeWine to reauthorize the FIRE 
Act.
    While we believe some fine tuning is warranted, the IAFF supports 
the FIRE Act improvements contained in S. 2411, and we are pleased to 
endorse the bill. Let me discuss some of the key subject areas of the 
FIRE grant, and the adjustments proposed in S. 2411.
Size of Grants
    One of the most important provisions designed to protect smaller 
jurisdictions in the original law was a cap placed on the size of 
grants. By limiting the size of any single grant to $750,000, the 
authors hoped to increase the number of grants that would be awarded. 
Many smaller grants were viewed as better than a few larger ones.
    There were two flaws in this reasoning. The first is simply the 
notion that the same cap should apply to all jurisdictions regardless 
of size. Larger fire departments require more funds, and the cap proved 
to be a disincentive for major cities to participate in the program.
    The second flaw is that the cap fails to consider the differences 
in organizational structure between volunteer fire departments and 
professional fire departments. Volunteer departments are often 
comprised of a single fire station, while professional departments are 
more likely to have multiple stations. As a result of these different 
systems, the FIRE Act has a built-in bias favoring volunteer fire 
companies.
    Consider, for example, two counties of approximately equal 
geographic size, both of which are protected by 20 fire stations. In 
the more populous, more industrialized of the two counties, the 20 
stations are organized into a single fire department, while the less 
populated county has 20 separate volunteer fire companies.
    Under the current formula which limits the amount a single fire 
department may receive, the larger of the two counties would be 
eligible for $750,000, while the smaller one is eligible for a total of 
$15 million. This is true regardless of the number of emergency calls 
that come in, population served or property protected.
    The cap on the size of grants must be raised and linked to 
population served. We are appreciative of the language in S. 2411, 
which addresses this need by creating three levels of grants linked to 
population, with the largest cities eligible for up to $2.25 million. 
Nevertheless, we would support raising the cap even higher. The House 
bill, for example, raises the cap to $3 million, and even at this 
elevated level, we feel obliged to note that it is just a step.
    The fire departments in America's largest cities protect millions 
of people, while some smaller fire departments number their 
constituencies in the hundreds. Allowing the largest areas to apply for 
less than 3 times more funding in the face of such vast disparities in 
need is a problem we believe will need further attention in the years 
ahead.
Local Match
    Another provision of the law intended to protect smaller 
jurisdictions is a lower local match for communities of less than 
50,000 people. Currently, larger jurisdictions must match 30 percent of 
the Federal funds, while smaller communities need only a 10 percent 
match. The 30 percent match has proven to be problematic for many 
communities.
    In our own City of Flagstaff, Arizona, population 60,000, we have a 
perfect problem case. Earlier in my testimony, I highlighted two 
Arizona cities that benefited from FIRE grants. Unfortunately, another 
city whose problems I highlighted in my 2000 testimony, Flagstaff, has 
had quite another experience.
    The fire department in Flagstaff has not received any FIRE Act 
funds because it is barred from applying. Flagstaff's mayor has simply 
forbidden the department to apply for funds because it cannot meet the 
local match.
    Yet the city continues to have great challenges. It sits at the 
junction of two interstate highways, I-40, which is a nuclear waste 
transportation corridor, and I-17. The fire department is responsible 
not only for the safety of the citizens of the community, but also for 
the millions of travelers and commercial vehicles passing through to 
the Grand Canyon, historic Route 66 and Mexico. It has responded to 
everything from wildfires to blizzard rescues. And the fire department 
continues to be understaffed and underequipped.
    While the Flagstaff Fire Department is protecting its forest 
community during our severe drought, it is also involved in planning 
preparations to treat the sick and injured should there be terrorist 
incidents on Interstate 40. And due to a shortage of funding for staff, 
one fire station has already been closed.
    The city would be a perfect candidate for a FIRE grant, yet because 
of other budgetary constraints it simply cannot come up with the local 
matching funds.
    And Flagstaff is not unique.
    In Austin, Texas, the City Manager told the local fire fighters 
union that he will never apply for a FIRE grant because he views the 30 
percent match as excessive.
    In Philadelphia, Pennsylvania, the city was forced to decline a 
FIRE grant it had already been awarded because it could not come up 
with the matching requirement.
    In Cincinnati, Ohio, the city was only able to afford the 30 
percent match for a flashover simulator it had requested by reducing 
funding for other fire service needs. As a result, the city has been 
unable to afford to use the simulator in training exercises. 
Tragically, a Cincinnati fire fighter lost his life in flashover while 
this technology sat idle in a nearby warehouse.
    In Bethlehem, Pennsylvania, the City Council was poised to vote 
unanimously to decline a FIRE grant it had been awarded because it 
could not afford the 30 percent match. At the urging of the local fire 
fighter union, the Council agreed to postpone the vote to give the fire 
fighters a chance to find an alternative. Ultimately, the fire fighters 
were able to convince City Council to float a bond to pay the matching 
requirement. It was the second consecutive year a special bond was 
necessary to receive FIRE Act funding.
    S. 2411 begins to address this problem by reducing the local match 
for larger areas from 30 percent to 20 percent. While we thank you and 
applaud this step, we encourage a further reduction to create parity 
and place all fire departments on a level playing field.
    The rationale given for the lower match for smaller communities is 
that smaller communities have fewer resources. While that may be 
generally true, smaller communities also have fewer emergency response 
needs, and therefore apply for smaller grants. We are aware of no 
evidence that shows that smaller communities have fewer resources on a 
percentage basis when compared to larger areas.
    Moreover, the notion that smaller means poorer is simply not true 
in many cases. There are affluent rural areas and very poor urban ones.
    We are even aware of some volunteer fire departments that have more 
financial resources than urban professional fire departments. While 
they are likely the exception, some volunteer fire companies have 
proven extraordinarily adept at fundraising. Conversely, elected 
officials in some larger municipalities are either unable or unwilling 
to provide additional resources to fire departments due to severe 
budget shortages and demands for increased spending on a variety of 
other public needs.
    Significantly, we have been unable to identify any other Federal 
grant program that has different matches based on population. Such a 
rigid formula has been deemed inapt for Federal assistance in other 
areas, and we urge that the FIRE Act similarly adopt the generally used 
practice of a single rate. If different matches are warranted, we urge 
that the distinction be based on more relevant criteria than 
population.
Expansion of the FIRE Act to EMS Providers
    While the IAFF strongly supports the use of FIRE Act funds to 
improve emergency medical services, we nevertheless have reservations 
about expanding the FIRE Act to agencies other than fire departments. 
While we understand and appreciate the argument to include EMS 
providers in jurisdictions where fire departments do not provide EMS, 
we are concerned that expanding the program to non-fire departments 
will open the door for other public safety agencies, such as police 
departments and private sector response organizations.
    The majority of emergency medical services in our Nation are 
provided by fire departments, and we believe that enabling fire 
departments to apply for EMS grants is the best way to improve pre-
hospital patient care in our Nation.
    If you choose to retain this language in the bill, the one 
amendment we urge you to consider is to remove the limitation that only 
volunteer EMS providers are eligible. While not many in number, there 
are public, professional, single role EMS agencies, and there simply is 
no reason to deny them access to this funding solely because they 
choose to hire and pay professional paramedics rather than ask people 
to work for free.
Measuring Effectiveness
    While the anecdotal reports on the effectiveness of the FIRE Act 
have been overwhelmingly positive, we are mindful that anecdotes alone 
do not warrant continuation of a program. For this reason, we support 
two provisions in S.2411 that will help us more accurately measure the 
true value of the program.
    The first provision is an update of the Needs Assessment authorized 
under the original FIRE Act legislation. While the first Needs 
Assessment clearly demonstrated the need for Federal assistance to 
local fire departments, we believe a second survey will enable us to 
measure the progress that has been made in the four years since the 
FIRE Act was created.
    Second, S.2411 contains language requiring that the General 
Accounting Office (GAO) report to Congress on the effectiveness of the 
program. We are optimistic that GAO will be able to identify clear 
measurements and specific benefits of the FIRE Act.
Administering Agency
    We note that, unlike the House bill, S. 2411 formalizes the role of 
the Secretary of Homeland Security in administering the FIRE Act in 
consultation with the U.S. Fire Administrator. We are aware that many 
organizations and Members of Congress strongly support returning 
authority to administer this program to USFA. Other Members of Congress 
and the Bush Administration want the program administered by a 
different office in the Department of Homeland Security to create a 
one-stop-shop for all grants.
    While we concur with USFA supporters that the agency has done an 
extraordinary job of running this program to date, we disagree that 
only USFA is capable of administering the FIRE Act effectively and 
efficiently. We believe the model and procedures developed by USFA can 
be replicated, and we have received repeated assurances from Secretary 
Tom Ridge, ODP Director Suzanne Mencer and others that whatever agency 
runs the FIRE Act will do so in the same manner as USFA. We have no 
reason to doubt their word.
    We therefore concur with authors of S.2411 that the Secretary 
should be granted the authority to determine which agency within the 
Department of Homeland Security is best suited to administer the 
program. We also support the inclusion of language guaranteeing that 
USFA will continue to play a role in the program, regardless of which 
agency has formal authority over it. This will ensure that DHS will 
make full use of the fire service expertise housed at USFA.
Non-Discrimination Against Volunteer Fire Fighters
    Mr. Chairman, there is one issue that we feel compelled to raise 
even though it is not contained in S.2411. The House version of the 
legislation contains an unfortunate provision which dramatically alters 
the very essence of this program, and which has caused us to oppose the 
House bill as currently drafted.
    The provision would bar a fire department from receiving FIRE Act 
funding if it contains in its collective bargaining agreement a clause 
prohibiting paid fire fighters from serving as volunteer fire fighters 
in another jurisdiction. While a perhaps well-intentioned effort to 
increase the number of volunteer fire fighters, the actual impact of 
this proposal would be detrimental and far-reaching.
    I would like to begin my discussion of this issue by offering some 
background. First, it is important to note that very few fire 
departments in the nation, perhaps one percent or two percent, have 
such clauses in their contracts. Most of them have been in place for 
several years, and have never been a source of any controversy. There 
is no controversy about this in Arizona that I am aware of.
    Why would a fire department have such a clause in their bargaining 
agreements? While the issues may vary from place to place, I believe 
the most typical answer can be found in the agreement between the City 
of West Allis, Wisconsin and the fire fighters union in the city. The 
West Allis example is especially helpful to understand this issue 
because the contract language includes a clear explanation of the 
provision's intent. Allow me to quote from it:

        ``For the reasons stated below the Chief of the West Allis Fire 
        Department shall prohibit employees of the West Allis Fire 
        Department from performing fire fighting duties for 
        municipalities operating a paid or volunteer fire department 
        other than the City of West Allis.

        1. The provision of fire protection services to the public is a 
        dangerous occupation requiring highly trained, capable 
        personnel using appropriate methods and equipment under the 
        direction of experienced supervisors. As such, the performance 
        of fire protection duties without the requisite training, 
        methods, equipment or supervision may threaten the health and 
        well being of employees and the public.

        2. Employees who perform fire protection duties on a voluntary 
        basis or as the result of outside employment are subject to 
        increased exposure to hazardous conditions that may result in a 
        greater incidence of illness or injury. Consequently, the 
        performance of such duties for other municipalities may have a 
        direct bearing on employee's ability to perform fire protection 
        duties for the City of West Allis.

        3. State statute has established a presumptive relationship 
        between an employee's fire suppression duties and heart and 
        lung disability the employee may develop. The City of West 
        Allis and its taxpayers are financially liable for the 
        employee's duty disability benefits, and must be confident that 
        such disabilities are the result of the employee's work for the 
        City of West Allis and not for other municipalities.''

    In short, the City of West Allis has chosen to bar its fire 
fighters from serving as fire fighters in other jurisdictions--either 
on a paid or volunteer basis--to protect the health and safety of the 
fire fighters and protect the city's taxpayers against unnecessary 
financial liabilities. For similar reasons, the City of West Allis also 
prohibits fire fighters from smoking off duty.
    While I am not entirely clear why the city's desire to protect its 
fire fighters and taxpayers is so objectionable, from our perspective 
whether such a prohibition is good public policy or not is beside the 
point. There are much broader issues at stake, and we ask that you 
oppose including it in the FIRE Act reauthorization.
    First and foremost, the language would mark the first time Congress 
has attempted to use the FIRE Act to dictate local fire department 
policies. To date, the only requirement is that a department has a 
legitimate need. Once we begin the process of placing restrictions on 
how fire departments choose to manage themselves, we are leading down a 
very thorny path.
    I do not mean to imply that the Federal Government has no 
legitimate interest in fire department policies. Indeed, there are 
many, many fire department policies that we believe may warrant Federal 
oversight. Our question, however, is whether the FIRE Act is the 
appropriate venue to address these issues.
    For example, many fire departments fail to comply with OSHA 
standards for safe fireground operation. This failure clearly 
jeopardizes the lives of fire fighters, and we believe every department 
should come into compliance with these basic safety standards. Many 
fire stations have bars that serve alcohol to fire fighters and others. 
We believe alcohol should never be present in a working fire station. 
Hundreds of fire departments in this Nation refused to grant rank and 
file fire fighters the opportunity to discuss with management their 
concerns about their own health and safety.
    We believe all of these issues are as important, if not more so, 
than whether a handful of fire departments have clauses barring people 
from volunteering in other jurisdictions. We have not, however, 
previously advocated using the FIRE Act to address these important 
matters because the program was never intended to compel changes in 
local Fire Department policies.
    Singling out this one restriction for inclusion in the FIRE Act 
opens a door that invites Federal micromanaging of fire departments. 
Does this extraneous issue truly warrant a radical redefinition of the 
FIRE Act's purpose?
    Second, the language establishes a precedent with implications far 
beyond the FIRE Act. Since this issue arose, we have been researching 
other Federal grant programs, and we have yet to find a single instance 
in which a limitation was imposed on a Federal grant based on language 
contained in collective bargaining agreements. While there are numerous 
limitations placed on Federal grants, we are not aware of any other 
attempts to redefine the scope of bargaining.
    The potential implications for this precedent are staggering. Shall 
Congress address the complex issue of health insurance coverage by 
denying Federal funds to employers whose health benefits are deemed 
inadequate? Shall we compel more teacher involvement in student 
activities by cutting off education funding because a teacher contract 
limits the number of evening events teachers can be required to attend 
without additional compensation?
    The issue of how to define the scope of permissible bargaining is 
extraordinarily controversial, and the debate has raged for decades. 
The notion of removing that debate from the context of labor law and 
addressing it through grant limitations is a breathtaking reach. I can 
only conclude that the advocates of this language do not fully 
comprehend the magnitude and unprecedented nature of the proposal.
    I hope you agree, Mr. Chairman, that this issue is far more complex 
than merely protecting the rights of people to volunteer. It is for 
these reasons, that when the national fire service organizations met to 
discuss a draft version of the House bill, we unanimously agreed to 
request that the provision be stricken. Even the National Volunteer 
Fire Council joined in expressing opposition to the proposal.
    Finally, placing a restriction on issues contained in collective 
bargaining agreements must be viewed as part of the larger issue of 
collective bargaining rights of the Nation's fire fighters. As you 
know, Mr. Chairman, the Federal Government does not grant fire fighters 
the right to bargain collectively. Where bargaining does occur, it 
exists because fire fighters have won the right at the state or local 
level.
    The IAFF has for many years advocated a Federal right to bargain 
for public safety employees, but to date the Federal Government policy 
remains that such rights are outside the scope of Federal authority.
    So the provision in the House bill contains something of a cruel 
paradox. On the one hand, the legislation retains the current position 
that the Federal Government does not have the authority to address 
bargaining rights of public employees, while on the other hand, the 
legislation would have the Federal Government restrict what we can 
bargain over in those places where we have won the right.
    We have to ask: is fire fighter bargaining a Federal issue or not? 
The double standard inherent in restricting bargaining issues without 
also granting bargaining rights is egregious and unsupportable.
    Mr. Chairman, for all the foregoing reasons, I urge you to oppose 
inclusion of this language as we move through the process.
Conclusion
    The FIRE Act program is a good one, one that is making a difference 
in Arizona and in communities across the Nation. I am hopeful, Mr. 
Chairman, that our suggestions for improvement will become part of your 
final bill. I look forward to working with you on these and other fire 
service issues in the days ahead.
    I will be happy to answer any questions you may have.

    The Chairman. Thank you very much.
    And on the issue of the match, I don't know exactly what it 
should be. I understand that smaller entities in towns and 
municipalities have a greater problem coming up with the money. 
But there is one thing I've learned here, and that is, when you 
don't require a match, the money is mismanaged. OK? There's a 
clear record of that. And so I am not prepared, in any way, to 
abandon the match idea. I'd be glad for us to fine-tune it. 
Obviously, the reduction from 30 to 20 percent is a step in the 
right direction. But to do away with it leads to enormous 
mischief, and many times with the best of intentions.
    Chief Mitchell, I think you should be given the opportunity 
to, maybe, respond to Senator DeWine's comments about EMS.
    Chief Mitchell. Thank you. Thank you, Mr. Chairman.
    I believe that, you know, this bill, fundamentally, is for 
the all-hazard, all-risk community, which is the fire service 
in this country. And we believe that the EMS funding should be 
to go to fire-based EMS. As I mentioned earlier, there are 
other revenue streams for third-party EMS, because they, for 
the most part, do the transportation end of it. They don't--we 
don't--we, the fire service, don't do all of the first 
responder, but we do in excess of 90 percent across the 
country. And pure first responder action does not lend itself 
to reimbursement. If you are, in fact, in the transportation 
end, then there is an opportunity to recover some of those 
expenses. About a third of the departments also do 
transportation. But over 90 percent, as I say, of the first 
responder work is done by local fire departments, with no 
opportunity for reimbursement to very many.
    So it is just our contention that the tremendous need 
exists in the fire community. And I've personally participated 
in grant reviews this year--I spent a week doing that--and 
found there's still a tremendous amount of need from the fire-
service community. We believe that this needs to be maintained 
as a fire-based bill, and that is our reason for objecting to 
including others--EMS providers.
    The Chairman. Thank you very much.
    Mr. Monihan, the Assistant to Firefighters Grant Program 
was created, and it was desired to aid volunteer fire 
departments in rural areas. How effective has that been in 
responding to those concerns?
    Mr. Monihan. It has been tremendously effective. 
Departments across the country have upgraded their--as my 
colleague was talking about--old turnout gear, and so forth, 
that they could not have begun to think about purchasing. And 
we're not talking about just ten-year-old gear; we're talking 
about duck coats, cotton duck coats. So it's been tremendously 
successful.
    One thing about the match--and I agree with you, we need a 
match; it can't be a gift, can't be a giveaway--but in the--I'm 
sure the large communities have the same problem. I was talking 
to a fire chief in Florida. He had a grant for a mini-pumper; 
had to turn it back because he couldn't come up with the match 
to make the grant. And----
    The Chairman. Well, in all due respect, he should complain 
to the mayor and the city council.
    Mr. Monihan. There is no mayor and city council.
    The Chairman. He should----
    Mr. Monihan. Many volunteer----
    The Chairman.--he should--there's bound to be a governing 
authority. He's not an autonomous organization, or shouldn't 
be.
    Mr. Monihan. Well, it might be a county, but some of them 
are at a crossroads, and there is no--you know, two houses and 
a gas station. So--and the county doesn't listen to the 
crossroads, I guess. I don't know.
    The Chairman. Then I'd throw them out.
    Mr. Monihan. That's entirely possible.
    The Chairman. Look, I just know from experience, whenever 
something is for free, there is not accountability. I mean, 
it's just a fact. As I say, I would be glad to try to adjust 
for those situations, but I keep hearing this, ``Well, the 
match is too heavy.'' Well, if the match is too heavy, you've 
got your priorities wrong. And so--anyway. But I thank you, 
sir. But I'm very glad to hear about the success of this 
program. And I thank you for your----
    Mr. Monihan. It's excellent.
    The Chairman.--involvement in it.
    Mr. Shannon, is there a way to develop a standard set of 
equipment and training requirements for every fire department, 
and use those requirements to determine weaknesses that should 
be addressed by the Assistance to Firefighters Grant Program?
    Mr. Shannon. A set of standards--well, I think that--I'm 
not sure that there's a way to develop a set of standards that 
you could apply ``one size fits all'' to every fire department 
in America, but I think that the needs assessment that has 
done--effectively does that, Mr. Chairman. And I think if you 
look that, we're going to--we've taken all of that data, and 
we've broken it down, state by state. I think if you take that 
data, when we release it later on, and apply it to the 
particular circumstances of a region or of an area or of a type 
of fire department, there is a way of assessing whether the 
needs are being met and where the deficiencies are.
    The Chairman. Thank you.
    Mr. Shields, what impact has this Act had on enhancing our 
ability to prevent, detect, and mitigate destruction by forest 
fires, such as is going on as we speak in Arizona?
    Mr. Shields. Mr. Chairman, as you will see from the list of 
fire departments that have received grants in Arizona, there 
is, I think, a great disbursement of these funds in rural 
Arizona and these areas that I think are most subjected to the 
wildfire threats; and not just in terms of equipment, but in 
training. In addition to the mutual-aid agreement reached 2 
years ago, statewide between all the fire departments, I think 
we have gone a far measure and improved greatly our abilities 
to handle the threat.
    The Chairman. So you think it is has enhanced our ability 
to combat these forest fires.
    Mr. Shields. It has.
    The Chairman. Does every fire department in Arizona have 
specific training on fighting forest fires?
    Mr. Shields. The rural fire departments do have specific 
training on fighting forest fires. Typically, the 
municipalities, the larger ones that are away from the forests, 
like the Phoenix area, don't. A lot of it is propagated through 
the state fire marshal's office and the Firefighter I and II 
training that is obtained by most firefighters in Arizona.
    The Chairman. Could I recommend, without any particular 
amount of expertise, if one of these things gets really big 
we're going to call on everybody, and I would suggest that 
perhaps maybe even Phoenix, Tucson--as you know, last year we 
had one that came very close to Tucson, up in the mountain----
    Mr. Shields. Yes.
    The Chairman.--there, next to it. So I hope that that would 
be looked at.
    Mr. Shields. If----
    The Chairman. Go ahead.
    Mr. Shields.--I could respond, Mr. Chairman.
    The Chairman. Yes.
    Mr. Shields. We do have a basic level of wild-land 
firefighting capabilities in these cities that are away from 
the large forests. And typically, in these mutual-aid 
scenarios, we're brought in to protect the cities that the 
firefighters from those cities are out protecting the forests.
    The Chairman. Thank you.
    Chief Mitchell, you wanted to comment on that?
    Chief Mitchell. I do--I would like to comment on that, Mr. 
Chairman. I've spent nearly 33 years in the fire service in 
Southern California, and----
    The Chairman. So you know.
    Chief Mitchell. And so, yes, I know. And what I--and four 
of those was spent as President of the Los Angeles Area Fire 
Chiefs, which includes Los Angeles City and County and 33 other 
cities. The FIRE Act grants have helped tremendously in 
equipping the other fire departments in the region that don't 
have a specific wild-land fire threat. When it happens, 
everybody comes. And it was expanded over the years from 
structural protection to actually wild-land firefighting. And 
people were responding without the proper gear, without the 
proper training. Water tankers were needed in areas that didn't 
have them. And this program has assisted greatly in remedying 
those shortfalls.
    The Chairman. Well, I don't mean to sound parochial, but I 
think we all understand that the Southwest is in a horrific 
drought that's going to last for a long time, in the view of 
many experts. I think we have to plan on that. We pray that 
that's not the case. And I think we're going to have to focus a 
lot more of our firefighters' attention onto that, at least in 
the Southwest.
    The bark beetle, as you mentioned, Mr. Shields, is killing 
off these trees, so, therefore, they've got more fuel; 
therefore, the fires are going to be worse. And so I hope that 
that would be given some priority.
    Did you want to say something about that, Mr. Monihan?
    Mr. Monihan. No, thank----
    The Chairman. No?
    Mr. Monihan. Well, I would say, you know, this is one of 
the strengths of the FIRE Act, because you're talking about 
wild-lands out there. We don't have too many wild-lands in 
Montgomery County, Maryland. But the departments are applying 
for the things they know they need. And somebody was talking 
about ``one brush fits all''--that doesn't work. That's the 
reason the FIRE Act works, is because they know what they're 
deficient in.
    The Chairman. Good. I thank the witnesses, and I appreciate 
the information. And we'll move forward quickly with the markup 
on this legislation. Thank you.
    This hearing is adjourned.
    [Whereupon, at 11 a.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Thank you Mr. Chairman for holding this hearing on the needs of the 
fire service. Our nation's firefighters are really on the front lines--
whether it's an auto accident, a house fire, a natural disaster, or an 
incident of terrorism, nine times out of ten, the first responders on 
the scene are fire fighters.
    I am glad that the Committee is holding this hearing today, because 
the needs of the fire service are great. As our second panel will tell 
us, too often, fire fighters show up under manned and under equipped 
for the job at hand. The Fire Administration's December 2002 report, A 
Needs Assessment of the U.S. Fire Service, pointed out that in most 
small and medium-sized cities, the first trucks on the scene of a fire 
often lack the 4 fire fighters needed to safely mount an attack on an 
interior fire. Either the fire fighters are put at risk by disregarding 
safety guidelines or the fire is allowed to burn longer while the first 
crew waits for a second truck to arrive. When fire fighters have to 
wait for additional assets in order to enter a building, the fire burns 
longer and becomes more dangerous for the victims and the fire 
fighters.
    We are off to a good start at getting the fire service some of the 
help it needs. Since the inception of the FIRE grant program, Congress 
has provided more than $1 billion to fire departments for training, 
equipment, vehicles, fire prevention, and other needs. Yet demand for 
this funding still outstrips the amounts provided. I look forward to 
passing this S. 2411 and making it easier for large cities and small 
towns to gain access to this important funding source.
    Again, thank you Mr. Chairman for holding this hearing. I 
appreciate the opportunity to examine these important issues and look 
forward to our witnesses' testimony.

                                  <all>

</pre></body></html>
